<html>
<title> - NO WORKER LEFT BEHIND: SUPPORTING ESSENTIAL WORKERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                         NO WORKER LEFT BEHIND:

                      SUPPORTING ESSENTIAL WORKERS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2020

                               __________

                           Serial No. 116-97

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


                     Available on: govinfo.gov,
                       oversight.house.gov or
                          docs.house.gov
                             
                             
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-842 PDF            WASHINGTON : 2020 
                              
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                       Peter Kenny, Chief Counsel
                    Amy Stratton, Deputy Chief Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------            
                                 
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 10, 2020....................................     1

                               Witnesses

Ms. Eneida Becote, wife of Edward Becote, essential worker who 
  died from coronavirus
    Oral Statement...............................................     5

Mr. John Costa, International President, Amalgamated Transit 
  Union
    Oral Statement...............................................     7

Mr. Anthony "Marc" Perrone, International President, United Food 
  & Commercial Workers International Union
    Oral Statement...............................................     8

Ms. Bonnie Castillo, Executive Director, National Nurses United, 
  California Nurses Association, and National Nurses Organizing 
  Committee
    Oral Statement...............................................    10

Mr. Clint Odom, Senior Vice President for Policy and Advocacy 
  Executive Director, National Urban League, Washington Bureau
    Oral Statement...............................................    11

Mr. Avik S. A. Roy, President, Foundation for Research on Equal 
  Opportunity
    Oral Statement...............................................    13

*  Opening statements, and prepared statements for the witnesses 
  are available at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below may be found at: docs.house.gov.

  * Letter from Medical Associations re: Supporting Essential 
  Worker Act; submitted by Rep. Jackie Speier.

  * Testimony by Derrick Johnson, President and CEO, NAACP; 
  submitted by Rep. Jimmy Gomez.

  * Testimony by American Federation of Government Employees; 
  submitted by Rep. Jimmy Gomez.

  * Letter from FDA re: Batelle; submitted by Rep. Katie Porter.

  * WSJ, "Unemployment Bonus Keeps Workers on the Sidelines", Op-
  Ed article; submitted by Rep. James Comer.

  * FEMA Slides on White House Covid-19 Supply Chain Task Force; 
  submitted by Rep. Bob Gibbs.

  * Questions for the Record: to Mr. Avik S. A. Roy; submitted by 
  Rep. Chip Roy.



                         NO WORKER LEFT BEHIND:
                         
                      SUPPORTING ESSENTIAL WORKERS

                        Wednesday, June 10, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 12:13 p.m., via 
Webex, Hon. Carolyn B. Maloney [chairwoman of the committee] 
presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Rouda, Khanna, Mfume, Wasserman 
Schultz, Sarbanes, Welch, Speier, Kelly, Lawrence, Plaskett, 
Gomez, Pressley, Tlaib, Porter, Jordan, Gosar, Massie, Hice, 
Grothman, Comer, Gibbs, Higgins, Roy, Miller, Green, and 
Keller.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    Ladies and gentlemen, thank you all for being here today. 
Before we turn to today's important topic, I want to address 
the murder of George Floyd and other unpunished cases of police 
brutality that have disgusted our Nation and propelled us, so 
many of us, into the streets to stand with our neighbors and 
communities of color that are routinely and systematically 
abused by our current criminal justice system.
    The committee and the House as a whole are committed to 
swiftly enacting profound reforms to punish police misconduct, 
holding police departments accountable to civilian oversight 
and eliminating the financing of police militarization. We all 
have more to say in the coming days, but as my friend, Virginia 
delegate Jennifer Carroll Foy, said last week, my protest is my 
statement, and so it is for me, even as we prepare our 
legislative solutions.
    With that said, the topic of today's hearing is essential 
workers. Since the onset of the coronavirus pandemic in the 
United States, we are all acutely aware of the threats posed to 
our health and safety, but we do not all face the risks of the 
crisis equally. Grocery store workers, food processing 
employees, public transportation operators, nurses and doctors, 
hospital support staff, nursing home employees, first 
responders, janitors, and mail carriers, delivery workers--in 
New York alone, at least 123 workers at the Metropolitan 
Transportation Authority have died this year from coronavirus.
    The people doing these jobs have taken on the extraordinary 
burden of maintaining essential services in dangerous and 
uncertain circumstances. They are essential to keeping this 
Nation running. That is why we recognize them as essential 
workers. They are our heroes and heroines.
    Our hearing today focuses on the responsibility that our 
Federal Government has to protect and support them now and into 
the future. Like the heroes of 9/11, the essential workers of 
today have been called upon to serve their country at a time of 
critical need, a need that places them and their families at 
heightened risk of injury or death.
    I believe we have an obligation to ensure that if they or 
their families become ill, there are financial resources 
provided for them. That is why, following the successful model 
of the September 11 Victims Compensation Fund, I introduced 
H.R. 6909, the Pandemic Heroes Compensation Act, on a 
bipartisan basis, with Judiciary Chairman Jerry Nadler and 
Congressman Peter King. Several members of this committee have 
signed on in support as well.
    I hope that the proposal will earn the same level of 
bipartisan support as the September 11 Victims Compensation 
Fund that Congress voted to make permanent last year with 
overwhelming support.
    While the jobs deemed essential during the pandemic are 
indispensable to the functioning of our communities, there are 
few other characteristics that essential workers share. They 
are more likely to be paid lower wages. They are less likely to 
have employment benefits, like paid sick leave or the option of 
teleworking, which means they are being forced into unsafe 
working conditions.
    Still, our country asks them to go to work every day. They 
will need financial help when they or their families get sick. 
They will also need financial help if they have to stop working 
to care for a sick family member. They should not have to bear 
the burden of these costs alone, especially when many are 
already at risk of economic instability.
    This burden does not fall on all communities equally. Black 
and Latino workers make up a majority of the work force 
considered essential. Communities of color have been 
disproportionately harmed by the coronavirus pandemic.
    Due to systemic problems in our country, these workers have 
long been paid less in wages on average than their White 
counterparts. They deserve our support. A mere thank you is not 
enough. We need to do more to support the heroes of this 
pandemic. It is the Federal Government's responsibility now, 
just as it was after 9/11, to provide help to essential workers 
who are stepping up to help all of the rest of us during this 
crisis.
    Now, before I turn it over to the ranking member for his 
opening statement, I want to let everyone know that I will be 
asking the vice chairman of the committee, Mr. Gomez, to chair 
the rest of this hearing for me. As you may know, after a few 
days of not feeling well, I decided to get tested for COVID-19 
out of an abundance of caution, and in consulting other medical 
professionals and my doctor, I am self-quarantining at home 
until I learn the results of the test. Therefore, I do not have 
the committee's parliamentarian with me.
    I want to thank all of you who have reached out to me and 
my office with well wishes. I'm deeply grateful for everyone's 
support, and I want to thank Vice Chairman Gomez for chairing 
this important hearing on essential workers.
    With that, I'll turn it over to the ranking member for his 
opening statement, and then turn the reins over to Vice 
Chairman Gomez. Thank you.
    Ranking Member Hice, you are now recognized for your 
opening statement.
    Mr. Hice. Thank you, Chairwoman Maloney, and let me also 
add to you personally our best wishes for you and for your 
health, and we are hopeful and prayerful that you'll be 
completely back in the saddle in every way in the very near 
future, and we appreciate you sharing that.
    First of all, I also want to say thank you to those who 
serve on the front lines. Obviously, we think of doctors, 
nurses, medical staff, and first responders, but they are also 
the truck drivers, the factory workers, and a host of other 
people who work tirelessly to sustain us as a country, and they 
did so during this pandemic.
    I also want to extend the most sincere and deepest 
condolences to those across our country who have lost loved 
ones during this time. I think it is important for all of us to 
remember that during times of crisis, our first responders 
become more than just the police and fire and EMTs. It, in 
times of emergencies, also include people whose shoulders we 
cry on. It includes counselors, various people who offer 
support. So, today, we want to say thank you to all of them.
    But the movement right now to defund the police 
departments, this movement from the left, to me, right now is 
particularly disturbing. I think it is not only absentminded, 
but, frankly, it demonstrates a major disconnect with people 
across this country in need of safety.
    These men and women, the police officers, law enforcement, 
have been on the front lines 24/7 for us for the last three 
months or so, and according to the Fraternal Order of Police, 
over 100 of them have lost their lives to coronavirus alone 
during the last few months.
    Obviously, the tragic death of George Floyd and many others 
before him prove, without any question, that there are issues 
in this country that must be addressed. But disbanding or 
abolishing law enforcement is not now, nor will it ever be the 
solution. That would be like saying we are going to abolish 
education because we have a few bad teachers. It's something we 
would not do.
    Yes, we do have some bad apples and some bad actors within 
law enforcement, but we also have some good ones, and its utter 
foolishness for us to throw the baby out with the bath water.
    Like, I'm sure, everyone in this hearing today, my heart 
broke from the appalling video of Mr. Floyd's death, those last 
few moments of his life. I don't know that I'll ever quite get 
over that. And I was reminded in the aftermath of it all 
personally, of one of my great American heroes that I love. He 
made a statement that anyone who claims to love America cannot 
sweep our national sins under the rug. He made a statement 
similar to that. It is not a quote, but that is the essence of 
his statement. And I fully, fully agree with him. We must fight 
the wrongs of racism in this country, but undermining and/or 
eliminating America's law enforcement is not the answer.
    The vast majority of law enforcement officers throughout 
this country are great, upstanding servants in their 
communities. In fact, in the wake of Mr. Floyd's death, 
hundreds of police officers have been injured across this 
country and several have lost their lives. Yet we have cities 
like Los Angeles, New York, Minneapolis, who are literally 
seriously considering defunding police departments at this 
time, and even to the extent of totally disbanding police 
departments.
    So, I just call on our colleagues across the aisle for all 
of us to fight racism. I believe that we can, and we must fight 
racism and, at the same time, support our law enforcement. We 
can do both. We should do both. I believe this is a time that 
we need to come together as a country and restore the bonds of 
faith in God and our love for one another. This type of 
rhetoric of disbanding and going after law enforcement 
agencies, I believe, does more harm and drives a wedge, driving 
us farther apart.
    So, no question we are at a historic point in our Nation, 
and as it relates to the coronavirus itself, since the 
beginning of this virus, the benchmark for reopening has been 
and was, we were clearly told, ensuring that we must flatten 
the curve so that our hospital systems would not be 
overwhelmed.
    As a result, the economy came to a screeching halt. We 
united as a Nation. We stayed home, we flattened the curve, and 
we succeeded. Now at this point, the U.S. has secured adequate 
capacities in our hospitals, and hospitalizations for COVID-19-
related illnesses continues to decline all across the country.
    The Trump administration is on track to procure some 
200,000 ventilators by the end of the year, and we also have 
over 200,000 ventilators available in the Strategic National 
Stockpile. So, while the previous administration left us 
unprepared, the Trump administration is making us stronger than 
ever, and states are beginning to reopen the economy in order 
to help communities that have been horribly impacted.
    In some instances, businesses we all know and individual 
lives ruined because of the shutdowns. The loss of economic 
output in the U.S. alone is estimated to be five percent of the 
country's gross domestic product. That's $1.1 trillion for 
every month that we are shut down.
    The unemployment rate hit a record 14.7 percent in April 
with over 40 million people filing for unemployment. However, 
last month, as states began to reopen, last month, the economy 
added 2.5 million jobs, and some states are totally open for 
business. I think the rest of the country has to follow suit.
    In addition to the financial impact, health experts agree 
in telling us that prolonged shutdowns like we have seen 
results in a wide range of health issues, including things like 
suicide and mental health, domestic violence, substance abuse, 
reluctance to go to the doctors for needed healthcare issues. 
So, there're fiscal issues. There are physical issues. There 
are mental health issues. And we must come to the point now of 
reopening our economy, reopening our businesses.
    Yet, to be honest, here we are. While so much of the 
country is returning to work, here we are, many of us here in 
Washington, having this hearing while Speaker Pelosi and our 
House Democrats continue to stay at home, holding virtual 
hearings. We have got to get back to doing the real live work 
that the American people sent us here to do, and I just urge my 
colleagues on the other side of the aisle to come back to 
Washington and do what we have been elected to do.
    With that, Madam Chairwoman, I yield back. Thank you.
    Mr. Gomez.
    [Presiding.] Thank you so much, Mr. Hice. Now we will 
introduce our witnesses.
    First, we have Eneida Becote, wife of Edward Becote, an 
essential worker who died from coronavirus. Next, we have John 
Costa, who is the international president of the Amalgamated 
Transit Union. Next, we have Anthony ``Marc'' Perrone, who's 
the international president of the United Food and Commercial 
Workers International Union.
    We also have with us Bonnie Castillo, who is the executive 
director of National Nurses United, California Nurses 
Association, and the National Nurses Organizing Committee. We 
also have Clint Odom, who is the senior vice president for 
policy and advocacy and the executive director of the 
Washington Bureau of the National Urban League.
    Last but not least, we have Avik Roy, who is the president 
of the Foundation for Research on Equal Opportunity.
    The witnesses will be unmuted so we can swear them in.
    Please raise your right hands.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative. Thank you.
    Without objection, your written statements will be made 
part of the record. With that, Ms. Becote, you are now 
recognized for your testimony.

 STATEMENT OF ENEIDA BECOTE, WIFE OF EDWARD BECOTE, ESSENTIAL 
                WORKER WHO DIED FROM CORONAVIRUS

    Ms. Becote. Hi. Hello, everyone. My name is Eneida Becote. 
I work at Weill Cornell Medical College in New York in the 
pediatric administration department. I live in Queens with my 
two sons, Joshua and Brandon.
    I'm here today to tell you about my family and how we lost 
our guiding light, Edward Becote, to COVID on April 9. I'm also 
here to speak on behalf of all the families left behind, so 
that our elected representatives know how important it is that 
you pass the Pandemic Heroes Compensation Act to help the 
families of essential workers who make the ultimate sacrifice 
for our country as America has been engulfed in this pandemic.
    First, let me tell you about my husband, Ed. Ed was one of 
the strongest, kindest, dedicated, and most loving person I 
have ever known. We met in the Brooklyn Hospital Center, where 
he was employed until the day he passed away. He was an 
incredible father and a loving husband and a best friend to 
anybody that crossed his path.
    He was just as dedicated to the patients who he served as a 
patient transporter for over 20 years. Ed wasn't the kind of 
guy who saw his job as just getting a paycheck or--because he 
loved his job and he--at the hospital, and he just--he felt 
responsible for all his patients and made sure to give every 
one of them the same level of care and attention that any one 
of us would want for our family members.
    He loved to tell jokes and had the biggest smile that would 
light up the room. He used that gift to make his patients feel 
comfortable as he was taking them to surgery or for tests, 
knowing the kind of stress and anxiety that they may be feeling 
at the moment.
    He was a loyal coworker and was surely devoted to the 
healthcare workers of Brooklyn Hospital, serving them as an 
1199 union delegate. He believed that everyone deserved to be 
treated fairly and with dignity. He believed that treating 
caregivers with respect was a vital part of providing good 
patient care in any healthcare setting.
    I used to tell him all the time he missed his calling; he 
should have been a lawyer. He truly loved being an advocate and 
brought a passion to the work that was an inspiration and 
example for others.
    We lost Ed on April 9, after he had been hospitalized with 
COVID for nearly three weeks. Over a matter of days, my 
strongest, energetic husband went from having a fever to being 
on a ventilator in the intensive care unit. I will never forget 
that day I got the call that he passed away. Me and my sons, 
our children, world has changed forever. Ed was a big presence 
in our lives. He was our guiding light and our protector.
    He's a devoted Pittsburgh Steeler fan, football coach, and 
a best friend. He was our rock. I pray that I can make it 
through the day without him, because every morning that passes 
by, it seems unreal that he's not here.
    Ed was also my partner. Together, we were raising a family 
and building our life. We worked hard to build our dreams and 
give our children the things we never had. Now, not only have I 
lost my best friend, but I've lost the man who worked alongside 
me for over 20 years, from building our American Dream.
    I urge you to pass this bill, not just for us, the Becote 
family, but for the tens of thousands of other families like 
us, who not only lost their loved ones to this cruel virus, but 
lost a loved one who gave so much to protect us all.
    In addition to supporting the families left behind, we can 
honor heroes, like my husband, by doing everything we can to 
stop the spread of coronavirus. We need to ensure that testing 
is widely available and much earlier. My husband didn't get 
tested until his symptoms were severe enough to put him into 
ICU and onto a ventilator.
    We also need to ensure that every healthcare worker gets 
the hazard pay they so rightly deserve and has access to the 
personal protective equipment that can help save their lives.
    Over these last few months, so many of the essential 
workers who played crucial roles in our healthcare system have 
gone unacknowledged. Food service workers, clerks, 
housekeepers, patient transporters like my husband. The best 
way we as a Nation can show our gratitude is to make sure they 
remain safe and healthy and able to return home to their 
families that they work so hard to support.
    Our family members make the ultimate sacrifice. Help us 
honor their memory by protecting the families they left behind, 
so we may go to help others build their own American Dream.
    Thank you.
    Mr. Gomez. Thank you so much, Ms. Becote. We extend our 
deepest sympathies for your loss. Thank you.
    Now we have Mr. Costa. You are now recognized for five 
minutes.

     STATEMENT OF JOHN A. COSTA, INTERNATIONAL PRESIDENT, 
                   AMALGAMATED TRANSIT UNION

    Mr. Costa. Chairwoman Maloney, Ranking Member Jordan, thank 
you for the opportunity to testify on H.R. 6909, the Pandemic 
Heroes Compensation Act of 2020. The ATU strongly supports the 
critical legislation. Transit workers need a new program for 
those who are injured or impacted by the coronavirus, modeled 
after the September 11 Victim Compensation Fund.
    The ATU is the largest transit union, with over 200,000 
members, and it's been 12 weeks now that this pandemic has been 
out there and, unlike others, our members have not had the 
opportunity to stay home or work from home. We're the workers 
out there that are moving the economy, keeping the cities 
going, and, unfortunately, we are the workers that have been 
affected the most with the infections, which are, right now, 
over a thousand. At 12 weeks later, we still have over 1,000 
confirmed corona cases, and, unfortunately, 53 of our members 
have passed. Our concerns are it's only going to get worse as 
it reopens, because it's obvious we're being overexposed.
    The sacrifices my members are making out there every day to 
keep front lines moving, like we've done before in 9/11, in 
Sandy, in Katrina, we've been out there, we know what our jobs 
are. We know these jobs are hard. We sit there. Our members are 
assaulted, are spit at, are murdered. And now we're dealing 
with an invisible challenge out here, an enemy we can't see 
every day, and, unfortunately, it's going to get worse, I 
believe, before it gets better.
    The lack of PPE. We've been dealing with many problems 
trying to get the PPE. We've just done a survey, as of now 12 
weeks later, and in the midst of reopening, 50 percent of our 
agencies do not have the proper PPE.
    The mishandling of this from the get-go with our government 
and our CDC telling us we did--CDC telling us we did not need 
masks, there were certain things we didn't need and later on 
changed, we, as the ATU, believe we can't count on our 
government, and we need to make the demands. So, we have made 
demands of back-door boarding. Overcrowding needs to stop. The 
recommendations, unfortunately, with the CDC has been ignored, 
and they've made changes, and, unfortunately, those changes, I 
believe, are going to put our members in harm's way.
    So, I--I urge the committee to look at this. It's funny; 
you call us heroes--you're calling our members heroes, but when 
we get to the table, we're zeroes. It's just--it's crazy here. 
We're in negotiations right now in some areas, and we see this 
happening.
    So, I hope you remember our members out there, I hope you 
remember our fallen, and I hope you help us keep our members 
safe moving forward as we open cities that need to be opened 
and need us out there to bring our cities back.
    Thank you very much.
    Mr. Gomez. Thank you so much, Mr. Costa.
    Now I'd like to recognize Mr. Perrone. You are recognized 
for five minutes.

STATEMENT OF ANTHONY ``MARC'' PERRONE, INTERNATIONAL PRESIDENT, 
     UNITED FOOD AND COMMERCIAL WORKERS INTERNATIONAL UNION

    Mr. Perrone. Thank you. And I'd like to thank Chairwoman 
Maloney, as well as you, Vice Chair Gomez, and the ranking 
member in front of the committee today, Congressman Hice. I'd 
also like to thank all the other members of the committee for 
the opportunity to testify on the experiences that workers in 
grocery, meat packing, food processing, and healthcare have had 
to endure during this pandemic.
    You know, my name is Marc Perrone. I'm the president of the 
UFCW International Union. The UFCW is America's largest retail 
and food union, representing 1.3 million hardworking men and 
women in the grocery stores, meat packing, food processing, 
healthcare, chemical plants, nonfood retail, and senior care 
facilities.
    We have members that are Republican, Democrats, and 
Independents from every state in this Nation as well as every 
congressional district. All across this country, our 
healthcare, food processing, retail food workers are risking 
their health and safety to ensure that the American people are 
taken care of, our Nation's food supply is safe, grocery store 
shelves are full and stocked, and pharmacies are distributing 
medication.
    These essential workers, as many of you have called them, 
deserve not only our gratitude, but they deserve adequate 
protections and provisions for their health and safety and 
financial security.
    I'd like to highlight the words of one of our grocery 
clerks out of Ralph's in southern California in San Diego. She 
said: Every day, you fear that you might catch the virus at 
work. You fear that you might take that virus home to your 
family, and we are working longer hours under very stressful 
conditions. Our lives are on the line.
    Let me stress to you how real this issue actually is. Our 
internal estimates have confirmed that 225 of our members have 
tragically died, and over 29,000 have been sick or exposed to 
COVID-19 since the beginning. Seventy of our packing house 
members and workers in the U.S. have died, with over 20,000 
that have tested positive to COVID-19.
    These profound risks that our members face is one of the 
reasons that we, the UFCW, supports the legislation to 
compensate the families of essential workers who die or are 
hospitalized as a result of COVID-19.
    While financial compensation cannot bring back what's lost, 
it is the least that we must do in order to support the 
families who have worked so hard to keep us fed and to take 
care of us. More importantly, it's about recognizing that we 
will never protect America's food supply unless and until we 
protect America's food workers.
    What's making things worse is that some of these essential 
workers must now endure the insult of having their hero pay--
and some of us have called it hazard pay--taken away even as 
this pandemic continues. Listen to the words of a food worker 
in Lawrenceburg, Indiana: We put our lives on the line every 
single day, and I worry about taking the virus back home to my 
grandchildren and my husband. When Kroger took away the hero 
pay from us, it was like a slap in the face. The fact of the 
matter is our customers don't wear masks, and it's putting us 
in jeopardy every single day. So, as long as the spread of the 
virus hasn't stopped, neither should the protections of the 
hero pay that our families so desperately need.
    In other words, this brave food worker exposed this: While 
some responsible employers like Cargill and Safeway have done 
what's right, there are others like Amazon and Walmart. Even 
some of our union employers like Kroger, have decided to put 
profits, quite honestly, over people. And while we can all hope 
that companies do what's right, the brutal reality is that many 
will not do that until you and our other elected leaders do 
more.
    Now, I know that legislative issues at times can be framed 
in a very partisan way, but this is not about being a 
Republican or a Democrat. This is about protecting essential 
workers in retail food, food processing, healthcare, as well as 
protecting our food supply, and that's why that I'd ask you to 
consider the following: Ensuring that all working people who 
are sick, who are affected by quarantine orders, or who are 
responsible to take care of children, who are, in fact, away at 
home because schools have been closed, should have job 
protections and paid sick leave for a minimum of 14 days.
    I'd also ask that we compel OSHA to issue enforceable rules 
specific to COVID-19--standards, if you will--and, to date, 
that has not happened. Our members, especially in healthcare 
and food processing, are feeling the consequences from that. 
Enforceable rules that slow line speeds mandate social 
distancing and prioritize workers and provide PPE free of 
charge.
    Last, we must include strong antiretaliation protections to 
ensure that all workers are protected from being unfairly 
threatened or fired. For the sake of this country that I know 
that we all love, I urge the committee and Congress to work 
together to do what's right for these brave workers.
    I thank you again for your time, and I would welcome any 
questions you may have. Thank you, sir.
    Mr. Gomez. Thank you so much.
    Now we have Ms. Castillo. You are recognized for five 
minutes.

  STATEMENT OF BONNIE CASTILLO, EXECUTIVE DIRECTOR, NATIONAL 
  NURSES UNITED, CALIFORNIA NURSES ASSOCIATION, AND NATIONAL 
                  NURSES ORGANIZING COMMITTEE

    Ms. Castillo. Thank you. Good morning. And thank you, 
Chairwoman Maloney, Ranking Member Hice, and members of the 
committee, for inviting me to testify today.
    National Nurses United is the largest union of registered 
nurses in the U.S. Our nurses are on the front lines of the 
COVID-19 response, risking their lives to care for patients 
throughout this horrific pandemic.
    Across the country, nurses have been denied the protections 
they need to prevent exposure to COVID-19. As a result, tens of 
thousands of healthcare workers have been infected. As of June 
5, NNU knows of at least 914 healthcare workers who have died 
and of which more than 134 have been registered nurses. These 
deaths could have been prevented if employers had protected 
their workers.
    The moment that outbreak began, hospitals across the 
country started locking up their PPE, claiming that there would 
be future shortages. Nurses have had to fight hospital 
management to unlock and allow access to PPE supplies.
    To protect against exposure to aerosol transmissible 
diseases, we must be given a respirator--at minimum, an N95--
but instead, nurses have been forced to use surgical masks, 
cloth masks, or even their own bandanas and scarves. These do 
not provide protection against COVID-19, but the CDC has 
sanctioned their use through weakened guidance.
    Hospitals have run out of gloves, coveralls, and gowns. In 
New York City, nurses were forced to wear garbage bags as 
makeshift PPE.
    Even when nurses are given N95s, they are forced to reuse 
them, sometimes for days on end. N95s are manufactured for 
single use only. Nurses are at risk of exposure every time they 
reuse one. Hospitals have begun to use decontamination 
processes for these masks, even though there is no scientific 
evidence that these methods are safe and effective.
    Many hospitals require nurses to continue to work after 
exposure. Some have required asymptomatic nurses to work after 
testing positive, putting patients and colleagues at risk. Many 
hospitals fail to communicate suspected or confirmed COVID 
cases, leaving countless workers unaware of potential exposure.
    There are three main reasons why nurses have not been 
protected at work. First, there is no OSHA standard that 
enforces workplace protections in hospitals during a pandemic.
    Second, Federal and state efforts to distribute PPE from 
stockpiles have been ineffective, and frontline workers have 
not seen the equipment supposedly delivered. We do not have a 
national medical supply chain that is coordinated, transparent, 
or efficient.
    Third, there is simply not enough stock of respirators and 
other necessary PPE in the country, and the Trump 
administration has refused to increase PPE production in the 
volumes required.
    These failures have created a deeply traumatic situation 
within hospitals across the country, and our nurses are dealing 
with that trauma every single day. Nurses live with the fear 
that they will become infected and pass it onto their families, 
friends, or patients.
    Many nurses are isolating away from their families. Some 
are sleeping in their garages or cars. At times when families 
need comfort--at a time when families need to comfort each 
other, nurses are deprived of this support.
    Nurses knew that the pandemic was on its way, way back in 
January. Why weren't the hospitals prepared? Why wasn't the 
administration or Congress prepared?
    Now, as plans on reopening--now, as plans on reopening in 
the country are underway, our nurses face increased risk. We 
could see and are seeing a second wave of infections. It is 
critical that Congress immediately pass legislation that will 
protect nurses and other frontline workers.
    NNU applauds Chairwoman Maloney for introducing H.R. 6909, 
which would provide compensation for workers who contact--
contract COVID-19 or for our families if we die from the 
disease.
    I have personally led online heartbreaking vigils for 
registered nurses who have died, and I know that their families 
need our support. But we also need Congress to take action 
immediately to prevent those infections and deaths from 
happening in the first place.
    NNU applauds the House for passing the HEROES Act. The bill 
includes a mandate that OSHA issue an emergency temporary 
standard for COVID-19, as well as provisions that would ensure 
the Defense Production Act is fully invoked to immediately 
increase the domestic production of respirators and other PPE. 
It is essential that these provisions are included in any 
compromise, negotiations--any compromise that is negotiated 
with the Senate.
    Our country has failed to protect nurses during this 
pandemic. Without protections, more nurses will continue to 
die. On behalf of nurses across the country, I urge the members 
of this committee to ensure that we get the protections we need 
immediately.
    Thank you.
    Mr. Gomez. Thank you, Ms. Castillo.
    Now we have Mr. Odom. You are recognized for five minutes.

 STATEMENT OF CLINT ODOM, SENIOR VICE PRESIDENT FOR POLICY AND 
ADVOCACY, EXECUTIVE DIRECTOR, WASHINGTON BUREAU, NATIONAL URBAN 
                             LEAGUE

    Mr. Odom. Thank you. And, Chairwoman Maloney and Ranking 
Member Jordan, thank you for allowing me to testify today on 
behalf of the National Urban League, one of the Nation's oldest 
civil rights organizations and direct services organizations.
    My long-formed testimony has already been entered into the 
record, so I'd like to just say a few remarks.
    I'd like to pay tribute today to the Africans and their 
descendants whose labor, without compensation, built the U.S. 
Capitol, made possible the Statue of Freedom that sits atop the 
Capitol dome, and made possible the rise of the United States 
as an economic superpower.
    I'd also like to lift up Ms. Breonna Taylor, an essential 
worker, an EMT from Louisville, Kentucky, whose life was cut 
short, not by COVID, but by police officers serving a no-knock 
warrant in March.
    African Americans are and have always been among the 
Nation's essential workers. African Americans and people of 
color are overrepresented in the essential work force. Their 
labor feeds, cleans, and cares for us. Their labor delivers 
life-sustaining packages, stocks our grocery stores, transports 
goods and people necessary to bring this economy back from a 
self-induced coma.
    Their labor both keeps us alive and gives us dignity at 
life's end. Their labor allows millions of nonessential workers 
to be productive while remaining safe at home, with only one in 
five African Americans and one in six Latinx people able to 
work from home.
    Essential workers occupy frontline jobs and greatly 
increase their exposure to the virus, yet we don't pay 
essential workers anywhere near their worth. We don't provide 
them with work protection and benefits necessary to survive the 
pandemic. Without a cure or a vaccine, essential workers often 
must choose between living and making a living.
    To date, 23,251 Black lives have been lost to COVID-19. By 
one estimate, 38 percent of African American workers are 
employed in essential industries. In places like New York City, 
however, 75 percent of essential workers are people of color, 
including 82 percent of cleaning services employees.
    Black women in particular bear the brunt of the essential 
worker dilemma. Black women are overrepresented in low-wage 
jobs, such as nursing assistants, personal care, or home health 
aides. When compounded with government-mandated school closures 
and restrictions on movement and a lack of affordable access to 
childcare, the stress of running a household for Black women is 
exacerbated. In addition, half of the Black households in this 
country with children are headed by single women. Of these 
households, 38 percent live below the poverty line.
    When exposed to the coronavirus, Blacks are hospitalized at 
2.5 times the rate of Whites, and, nationally, African American 
deaths from COVID-19 are nearly two times greater than would be 
expected based on their share of the population. Blacks and 
Latinos are more likely to have preexisting health conditions, 
such as asthma, heart disease, and diabetes, that makes death 
from viral infection more likely.
    With respect to pay, essential workers are paid less than 
nonessential workers. Essential workers in the food and 
agriculture industry, in particular, have the lowest median 
hourly wage at $13.12.
    African Americans and other workers of color work for 
employers many times that do not offer health insurance, as 
we've heard today. Uninsured COVID-19 medical expenses can 
decimate a family's finances. Testing alone out of network can 
cost as much as $1,300, while the cost of hospitalization and 
treatment for more severe cases of COVID-19 can cost almost 
$75,000 without insurance.
    Although workers of color are overrepresented among 
essential workers, they suffer from the second blow of higher 
unemployment rate caused by the pandemic. The CBO explained as 
follows: Low-wage workers and low-income families have borne 
the brunt of the economic crisis, in part because the 
industries hardest hit by the pandemic and social distancing 
measures disproportionately employ low-wage workers. 
Furthermore, workers who are young, female, have less 
education, and are from certain racial or ethnic groups have 
seen disproportionately large job loss, end of quote.
    So, you've heard from other witnesses today about the need 
for PPE, a good living wage, the need to pass--for Congress to 
pass the HEROES Act, and for this body to pass the important 
Heroes Compensation Act, which the National Urban League is 
very pleased to endorse. These are all excellent ideas. The 
Pandemic Heroes Compensation Act only works, however, if 
essential workers contract COVID-19 while employed.
    The economic data suggests that Black unemployment, 
hovering near 17 percent, will become more acute over time. 
Last week's May employment numbers do not suggest that the 
economy is moving out of the woods. Fiscal policy will be the 
main driver of economic growth in the early stages of recovery. 
We're still in a deep hole with 13.3 percent unemployment. 
Congress must take these concerns seriously and inject more 
fiscal stimulus--excuse me--stimulus into the economy.
    Thank you, and I look forward to your questions.
    Mr. Gomez. Thank you so much for your testimony.
    Now I'd like to recognize Mr. Roy. You're recognized for 
five minutes.

   STATEMENT OF AVIK S.A. ROY, PRESIDENT, THE FOUNDATION FOR 
                 RESEARCH ON EQUAL OPPORTUNITY

    Mr. Roy. Chairwoman Maloney, Vice Chair Gomez, Mr. Hice, 
and members of the committee, thanks for inviting me to speak 
with you today.
    Chairwoman Maloney, I was a constituent of yours in the 
2000's when I lived in Turtle Bay, and so I'm sorry we won't 
get to spend more time together today, and I wish you all the 
best with your health.
    The Foundation for Research on Equal Opportunity, or FREOPP 
for short, is a nonpartisan think tank that focuses exclusively 
on ideas that can improve the lives of Americans on the bottom 
half of the economic ladder. On behalf of everyone in my 
organization, I want to thank all those who risk their health 
and safety for us every day.
    I'm grateful for the opportunity to hear from the other 
witnesses here today. I want to focus my opening remarks on two 
aspects of today's topic.
    The first is decisions by state governments that have 
endangered vulnerable seniors along with the first responders 
who care for them. The second is how to ensure that the tens of 
millions of Americans who have been thrown out of work are no 
longer left behind.
    Of the 100,000-plus Americans who have died of COVID-19, 
the CDC counts 379 deaths among healthcare personnel and 
several hundred more in each of the occupational categories 
that we've discussed today. Each one of these deaths is tragic. 
An underappreciated part of the story is how many of these 
deaths occurred because of people who are sent to the hospital 
from nursing homes.
    Point-six percent of the U.S. population lives in nursing 
homes or assisted living facilities, and yet 42 percent of all 
deaths from COVID-19 have occurred among residents of these 
facilities, 42 percent.
    Some states recognized the threat early on. In Florida, 
hospitals pressured state officials to let them discharge 
COVID-infected patients into nursing homes, but Florida 
resisted. We drew a line--a hard line early on, said Mary 
Mayhew, who runs Florida's health agency. I'm not going to send 
anyone back to a nursing home, she told hospital CEOs, who has 
the slightest risk of being positive. What we said constantly 
is let's not have two cases become 20, or five become 50. If 
you don't manage this individual as you return back, you'll 
have far more being transferred back to the hospital.
    Contrast Florida's approach with New York's, where from 
March 25 through May 10, Governor Andrew Cuomo forced nursing 
homes to accept COVID-infected patients, despite strenuous 
objections from nursing home operators and caregivers. They 
don't have a right to object, Cuomo said on April 20. That is 
the rule and the regulation and they have to comply with that, 
he said.
    New Jersey and Michigan are among the other states with 
major outbreaks that force nursing homes to accept infected 
patients from hospitals. California and Massachusetts initially 
imposed similar mandates but reversed themselves after 
complaints from nursing home advocates.
    The other big policy mistake that we've made at multiple 
levels of government is the imposition of one-size-fits-all 
economic lockdowns. Hundreds and perhaps thousands of Americans 
have died in the recent months not due to the virus, but the 
economic disruption that followed. Not everyone is at risk or 
equal risk of severe illness or death from COVID-19. As we've 
discussed, residents of long-term care facilities are, by far, 
at the greatest risk, as are first responders.
    Overall, individuals over 65 account for 81 percent of U.S. 
COVID fatalities. Those under 35, by contrast, only account for 
0.8 percent of deaths. A more targeted policy aimed at 
protecting the most vulnerable could have saved millions of 
jobs and thousands of lives, and still can.
    At FREOPP.org, we've put forward a detailed plan coauthored 
by both Republican and Democratic health policy experts that 
shows how we can safely reopen the workplaces and schools and 
bring Americans back to work.
    Given the conversation that we've been having these days 
about racial disparities, it's essential to note also that the 
workers we have most left behind under economic lockdowns have 
been minority workers.
    In late 2019, Black unemployment reached its lowest rate in 
history, 5.4 percent. Today, that rate is 16.8 percent. 
Hispanic unemployment reached a record low of 3.9 percent in 
late 2019. Now it's 17.6 percent.
    In my written testimony, I detail how disparities between 
White and non-White unemployment rates have also reached their 
lowest levels in history prior to the pandemic. The economic 
lockdowns have brought those disparities back to levels last 
seen in the last Great Recession.
    Put another way, racial and ethnic disparities in 
employment are worse when the economy is worse, and especially 
during the government-mandated shutdowns and the economy we are 
experiencing today.
    These disparities are, in part, due to the fact that Blacks 
and Hispanics are more likely than Whites to be hourly wage 
earners, but Black-owned businesses have also been hit far 
harder than White-owned businesses. A recent paper published by 
the National Bureau of Economic Research estimates that Black-
owned businesses have experienced losses of 41 percent between 
February and April, versus 32 percent for Hispanic-owned 
businesses, and only 17 percent, relatively speaking, for 
White-owned companies.
    There is much more to say on these topics, but let me stop 
there, and I look forward to our discussion today. Thank you 
very much.
    Mr. Gomez. Thank you so much.
    Now we're going on to the question and answer segment of 
our hearing. Ms. Maloney is not feeling well, so I will now 
recognize myself for five minutes for questions.
    This coronavirus crisis has really reframed what we 
consider essential workers. In the past, we only really 
considered essential workers, in people's minds, nurses, 
doctors, frontline emergency firefighters, police officers. 
That's what we envisioned before. But during this crisis, we 
really did get a better sense that, in order to keep people 
fed, keep people hungry--I mean, fed, healthy, make sure that 
they're safe, all of a sudden, the idea of essential workers 
has changed, right, at least in the public's mind. The transit 
worker, the grocery store worker, the people in the fields, the 
people that make sure that your kids are taken care of and that 
you can go to work.
    All of a sudden, the idea of essential workers has shifted, 
and that's what I think is something that we need to dig into 
more, that an essential worker is not just the people with the 
highest degrees, right? It's the people who are making sure 
that life can continue, even if you're locked down because of 
health reasons, because of a pandemic. That's why I really do 
appreciate everybody who's on the panel, everybody who's out on 
the front lines. It's been an amazing thing to watch.
    So, I just want to say, first, thank you so much to all the 
essential workers, from the people in the fields to the people 
in the emergency rooms. You are making our life easier and 
better, and that's why I'm--since I've been--during this 
pandemic, I've had townhalls through virtual reality, just like 
we're doing right now. I had Facebook live townhalls with 
nurses from the United Nurse Association of California. It's a 
nurse's union that I worked for when I was--before I ever got 
elected--with SEIU United Service Workers West, to discuss 
their needs, what were the problems, what were they seeing?
    A lot of it came down to basically PPEs, you know, that 
they weren't getting the right equipment that allowed them to 
do their job in a safe way so they wouldn't be worried that 
they're going to take back the virus to their loved ones at 
home and get them sick. I want to just say that they continue 
to impress all of us with their work.
    Just for the record, I want to ask a few questions so that 
we can--I know the panelists have answered this question, but I 
want to do it in just in order.
    Mr. Costa, are you aware of any essential transit workers 
who have passed away from COVID, yes or no?
    Mr. Costa. Yes. Yes.
    Mr. Gomez. Mr. Perrone, are you aware of any essential food 
and commercial workers who have passed away from COVID, yes or 
no?
    Mr. Perrone. Yes. Yes.
    Mr. Gomez. Ms. Castillo, are you aware of any essential 
nurses who have passed away from COVID?
    Ms. Castillo. Yes.
    Mr. Gomez. Yes. All your workers have been putting their 
lives on the line, and that's what I want people to recognize, 
is that people have lost their lives. Even if you do not know 
someone who has lost their life to COVID, there are essential 
workers who have. So--and that is impacting not only their 
families, but their coworkers, and it's leaving a hole in the 
fabric of their communities.
    Mr. Odom, how would you describe the economic burden on 
low-income workers and essential workers of color during this 
coronavirus pandemic?
    Mr. Odom. I would describe it as a multilayered disaster. 
Many families of color have one person who's supporting the 
household. We have, among communities of color, some of the 
lowest rates of multi-workers in the same household. So, when 
one household member goes down with COVID or is even under 
quarantine or just waiting for testing to come back, that 
person is not making money and that person can't support their 
family.
    That's a double body blow in addition to the high rates of 
unemployment that we also see in this community. So, we are 
both forced to work and are also the first victims of layoffs 
when layoffs come, as they invariably have.
    Mr. Gomez. Thank you, Mr. Odom.
    Mr. Perrone, do food and commercial workers have death 
benefits?
    Mr. Perrone. No, we do not.
    Mr. Gomez. Ms. Castillo, do nurses have death benefits if 
they get--they die from coronavirus?
    Ms. Castillo. No.
    Mr. Gomez. Mr. Costa, do the transit workers have death 
benefits if they die from coronavirus?
    Mr. Costa. Some do and some don't.
    Mr. Gomez. So, that's why--the reasons why we need 
Chairwoman Maloney's Pandemic Heroes Compensation Act. It would 
create a fund to cover economic losses of essential workers 
who've become sick or passed away from coronavirus. These are 
just like somebody who puts their life on the line when they go 
into a fire or go into--into a military conflict and they lose 
their life; there are some death benefits for those 
individuals.
    So, I'm in support, and I signed up as a cosponsor of the 
Pandemic Heroes Compensation Act, and I hope that we can pass 
that as soon as possible.
    With that, I yield back. And now I'd like to recognize Mr. 
Hice for your questions. You may unmute yourself.
    Mr. Hice. Thank you, Vice Chair. I appreciate that.
    Mr. Roy, let me go to you. One of the parts of this whole 
discussion that, at least in my opinion, we're not talking 
enough about is the Communist Party of China. There's no 
question they intentionally concealed the severity of COVID-19, 
and while doing so, they stockpiled a lot of medical supplies, 
PPEs, and a host of things that would have, could have been 
extremely useful globally.
    It's alarming to me; I'm looking at some stats that we came 
up with. They actually--during this time, they imported a lot 
of PPEs and different supplies. Surgical masks in China went up 
278 percent; surgical gowns, up 72 percent; surgical gloves, up 
32 percent, and all of these while they were hiding from the 
world what was taking place and just how severe this could have 
gone.
    We even helped. I mean, we sent them some supplies too, 
and, obviously, a lot of these supplies could have been used to 
help many people who are on the front lines, and yet we did not 
know just how severe this thing was.
    So, I guess my first question to you, Mr. Roy, would be, do 
you believe that we should act? Should we take some sort of 
action to ensure that China is held accountable for what they 
did?
    Mr. Roy. Well, Mr. Hice, I mean, I agree with your 
assessment of China's culpability, but I don't--I don't know 
what the tools are. I certainly haven't spent enough time 
thinking about what the tools are that we have, the leverage we 
have to request compensation or other means, which I know 
plenty of people in Congress and the White House have been 
thinking about that topic, and I'm glad--I'm glad you are. I 
just don't--I don't have any specific recommendations for you 
off the top other than to the degree that if there is a way to 
do it, let's do it.
    Mr. Hice. OK. What--what about on the--on the issue of how 
China now is--is involved in some espionage, actually, even to 
go after some of our treatments, trying to find our vaccine 
research. As we are--are being told, at least they're--they're 
targeting U.S. universities, pharmaceutical companies, other 
healthcare firms in an effort to try to get really secret, 
sensitive information that we have, research that we have done 
related to the virus. Are you--are you aware of that, of what--
of what they're doing? And I guess beyond that, how harmful is 
that in our capacity to find vaccines?
    Mr. Roy. Well, I have great confidence in the R&D 
infrastructure of the United States, both in terms of the 
university academic sector, as well as private pharmaceutical 
and biotechnology companies to develop effective treatments and 
vaccines eventually. One thing we've written a lot of about at 
FREOPP.org, our think tank, is that we cannot count on a 
vaccine being developed in the near term. We can certainly hope 
for the best, but the fastest vaccine for a novel virus 
developed in recent history was the Ebola virus vaccine, which 
took five years to develop. So, this idea that we're going to 
have a vaccine for SARS COVID 2 in 12 to 18 months? Look, let's 
all hope that that can happen. But we're--if we're going to bet 
our entire economy on that, I think that would be 
catastrophically mistaken.
    We've got to figure out ways to reopen the economy and 
encourage R&D innovation at the same time, even if a vaccine 
doesn't immediately come forward, and then we have to protect 
our intellectual property if China tries to steal them.
    Mr. Hice. Yes. I mean, that protection of our intellectual 
property is really where I'm going to. There are some companies 
that believe that we will be able to, in fact, get a vaccine 
hopefully early this next year. And it's pretty remarkable how 
rapidly our R&D in this country has moved forward to research, 
and to come up with some treatments that are--are looking to be 
extremely helpful with this. But the protection of our 
intellectual property there is a--is a major issue for me, and 
I'm just deeply concerned with what the--the espionage campaign 
that the Chinese are bringing forth to steal that, and how that 
espionage campaign affects our ability to do--to effectively do 
research.
    Mr. Roy. Well, what--the way the patent law works is, the 
patent clock begins from the time that you file your patent 
with the U.S. Patent and Trademark Office. So, if a 
biotechnology company or an academic university has developed 
some approach to developing a vaccine that they think is 
worthwhile, and they file the patent applications accordingly, 
by the time the Chinese get to it, the patents will already be 
on--on the timeline, on the clock, so to speak, in the U.S., 
and that will be important.
    So, what's--what's important to say is that for any--any 
people in the biotech community who are--who are watching this 
hearing, if you've got IP, make sure you're asserting it.
    Mr. Hice. Thank you very much. I yield back.
    Mr. Gomez. Thank you, Mr. Hice.
    Now I'd like to--Ms. Norton is now recognized for your 
questions for five minutes. You may unmute yourself.
    Ms. Norton. I hope you can see--I hope you can see and hear 
me. It's not unmuted. I've done it.
    Mr. Gomez. You're--you're good. Oh. You're--you're muted 
again.
    Ms. Norton. Sorry. All right. I--I want to begin by 
thanking our chair for this very important hearing and to wish 
her the very best as she is quarantined, and I certainly want 
to express my condolences to Ms. Becote. In a real sense, this 
hearing is dedicated to her and her loss.
    I do want to say because it was remarked that we should be 
meeting in here, in the Nation's Capital. I do want everyone to 
know that there is a reason that I think the chair has chosen 
not to meet in the Nation's Capital. If there are hot spots 
still, this is the hottest spot, the very last to open, and 
it's only squeaked open a very little bit. With the mass 
demonstrations that have occurred here because of the death of 
George Floyd, I'm not sure when the Nation's Capital will be 
open, so I'll depend on the best judgment of the chair.
    My question is for Mr. Costa. This region is the most 
public transportation-dependent region in the country. Now, I 
know I speak for other members who are increasingly dependent 
on public transportation. We have electric buses coming on, and 
with climate change, more and more regions of the country are 
turning to mass transit from one kind or another, not to 
mention climate change itself, which has made--has made 
climate--which has become central to a bill, and maybe one of 
the few bills that will pass this session. I am subcommittee 
chair of a--of the committee that has just written a new 
transportation and infrastructure bill which is likely to go to 
the floor this year.
    So, my question is for Mr. Costa about public 
transportation, with the dependence of the country increasingly 
on public transportation. Not every region is set up to have 
trains of the kind we have in the Nation's Capital, and so 
buses, increasingly electric buses, are becoming more 
important. So, I would like to know what you're experiencing as 
the difference between the effects of the virus on--on bus and 
train drivers at the moment, Mr. Costa?
    Mr. Costa. The--the bus drivers are more exposed, of 
course. It's a smaller vehicle, and the air flow on it, the 
filtered system needs to be redone. We need to look at that, 
especially on the reopening because the air flow comes from the 
back, so we need to put a better filtered system in there.
    As far as trains, we are concerned there, too, with the air 
flow. Like in New York, they have made some changes there with 
the filtered systems and UV systems they're putting in because, 
let's face it, even though they're in a compartment, when you 
open up that compartment and shut it with a lot of passengers 
on and the overcrowding, there's still a concern.
    So, more and more of our exposure that we found, of course, 
is on a bus, but even the maintenance area early on with the 
cleaning of the buses. We had a lot of--we had some of our 
maintenance members pass away also, contracting the virus just 
by cleaning the buses, because of--because the--the poor 
leadership on the PPE that wasn't given or educated to our 
members.
    Ms. Norton. Mr. Costa, it looks like you're saying whatever 
decisions are made to reopen on a gradual--in a gradual way, 
that we ought to look first to transportation to see if the 
necessary steps have been taken there. I would like to say to 
the chair of the committee that I believe it would be useful 
to--to speak more specifically to our transportation operators, 
about which I have not heard a great deal as we talk about 
reopening. Because reopening, it seems to me, cannot occur 
unless our workers are able to get to work. And the testimony 
I've heard today from Mr. Costa does indicate that more needs 
to be done. Is that--is that the case, Mr. Costa?
    Mr. Costa. Yes. I--I am very concerned that I don't have to 
make any more phone calls going forward after 53 of my members 
have passed, coworkers and friends of mine, most recently one 
from north New Jersey, New Jersey Transit over the weekend. So, 
there is a big concern, and I just hope the industry and how 
they get to this is right.
    The air flow is a big problem. We're going to have--you 
know, the CARES Act helped. We kept the service--we kept the 
service on the road which helped us with overcrowding. And now 
that we've opened up, we need to be cautious because we are--we 
did experience, I believe, the most that have--that have passed 
away so far is in the transportation area.
    So yes, very, very--I'm very concerned with the reopening, 
and I hope everybody moves slowly and gets input from the 
transportation unions and operators at the table, not just make 
the determination as they--as many of the management people are 
sitting home, unlike us, on the road moving, moving the 
country.
    Ms. Norton. Thank you.
    Mr. Gomez. Ms. Norton, your time has expired.
    Mr. Gosar is now recognized--you're now recognized for 
questions. You're recognized for five minutes. You may unmute 
yourself.
    Mr. Gosar. Thank you, Mr. Chairman. Can you hear me?
    [Inaudible] distance matters. Words matter. Something that 
doesn't seem to matter to the chairwoman is who is deemed 
essential. In your bill, Pandemic Heroes Compensation Act, you 
designate essential workers as those who can be tapped into the 
COVID-19 compensation fund. Who are these essential workers, 
you ask? Your bill designates essential workers as any 
individual employed, or a contractor working for a person, 
business, non-profit entity, or Federal, state, tribal, or 
territorial or local government that is determined during a 
response to the COVID-19 pandemic to be essential, based on 
state, local, tribal, or territorial orders, or declarations or 
their equivalent or Federal guidelines--guidance published by 
the Cyber and Infrastructure Security Agency, CISA, who 
performed this work outside their place of residence.
    I'm not going to sit through every individual scenario that 
we could make an argument for someone who is deemed essential 
because, honestly, there would never be enough time. My point 
is, is that who are we able and to decide who is and who isn't 
essential? A job is essential by its very nature. Is it fair to 
say that someone who works a desk job isn't essential? Who 
could ask their children if they think food is essential, food 
that their parent's desk job provides? We should not be in the 
business of micromanaging the economy and determining who is 
more important. I believe those who work to provide a good life 
for their family and to help sustain the economy are essential, 
not some random list of non-profit employees that a government 
bureaucrat determined.
    Now, just like the ranking member, why aren't we talking 
about China? Where is the legislation to hold them accountable? 
We are discussing legislation that will cost trillions more in 
taxpayer dollars by sending money to an unprecedented amount of 
people. Why not allow--why aren't we allowed to even question 
what is being force-fed down our throats? This is the same as 
the 9/11 compensation fund. Even though I support helping folks 
that were affected by that tragic event, not supporting every 
aspect of it was met with harsh criticism and dismissal.
    Let's talk about the real problems in this bill, like 
forcing already struggling businesses to offer hazard pay. Are 
you trying to destroy small businesses? Honestly. Because you 
don't even seem to show the slightest bit of empathy for those 
who take chances to start a business. No real cap on how much 
special master can spend on. I've been fighting for years to 
get compensation to folks in parts of Arizona who were affected 
by nuclear regulation--radiation from nuclear missile testing, 
but I guess since it wasn't pumped by the news all day every 
day for three months, they don't deserve it.
    Well, on March 19,2020, more than 600 physicians signed a 
letter to President Trump stating that, quote, ``millions of 
casualties of a continued shutdown will be hiding in plain 
sight, but they will be called alcoholism, homelessness, 
suicide, heart attack, stroke, or kidney failure. In youths it 
will be called financial instability, unemployment, despair, 
drug addiction, unplanned pregnancies, poverty, and abuse,'' 
end of quote.
    What are some of the long-term impacts the economic 
shutdown will have on our country? I'd like to ask that--Mr. 
Avik Roy that very question. What are some long-term impacts 
the economic shutdown will have on our country?
    Mr. Roy. Well, if we have a long-term shutdown, we know 
from a lot of past experience and evidence that there's a 
significant effect not just on the economy, but on mortality, 
illness, public health, deaths of despair, the number of people 
who--who either because they lose their job, lose high quality 
health insurance, or because they have lower access to care, or 
because of other things that are going on in their lives or 
their children. So, there's a--this is not merely a dichotomy 
between safety and public health on the one hand, and economics 
and money on the other. If tens of millions of people are 
unemployed for a sustainable period, there are public health 
costs for that too, and that is widely understood in the public 
health arena.
    Mr. Gosar. And--and going along those same lines, would not 
our veterans have the same type of outlook and the same type of 
problems?
    Mr. Roy. Certainly, especially those who--well, I mean, 
for--for all the same reasons, yes. Short answer, yes.
    Mr. Gosar. Yes. And--and my last question to you is we 
found that the states and the public health aspects were behind 
the cue ball. There's a lot of misinformation, some things that 
common sense would actually front much more forward. Do you 
think it's time to make sure that we hold these many republics, 
these states, and their executives, accountable for some of the 
actions?
    Mr. Roy. Dr. Gosar, yes. So, in my book, my written 
testimony, statement, my oral statement, I highlighted the 
issue of nursing homes, and how nursing homes created a lot of 
the risk for first responders that we've been discussing today.
    Another thing that I should mention. We've mentioned a lot 
about public transit, particularly New York City. New York City 
Mayor Bill De Blasio waited until May 6, May 6, to disinfect 
the subways for the first time. And there's evidence, there's 
research out of MIT that suggests that--that the New York 
subways were a major vector of transmission. We know that the 
tri-state area around New York City is the single largest 
outbreak in the country and, indeed, the world.
    Mr. Gomez. Thank you so much.
    Mr. Gosar. I yield back.
    Mr. Gomez. Mr. Gosar, your time is up.
    Mr. Lynch, you're now recognized for five minutes. You may 
unmute yourself.
    Mr. Lynch. Thank you, Chairman Gomez. I appreciate you 
and--and Chairwoman Maloney and the ranking member, Mr. Hice, 
for holding this hearing.
    First of all, I'd like to express my condolences to Ms. 
Becote on the loss of your husband, Ed. I want to thank you for 
your willingness to--to appear at this virtual hearing and to--
to bring it home in a--in a personal and--and profound way 
about what the loss of your husband means to you and your 
family.
    I know that I have a--a lot of folks in my district that 
have had a similar experience losing a loved one, and I just 
want you to know that I'm--I'm with Chairman Gomez and Chairman 
Maloney as an original co-sponsor of her bill to provide some 
relief to families in your situation. But I do appreciate your 
courage in coming forward and taking your tragic situation and 
trying--trying to help others from--from suffering the same 
fate. So, we really do appreciate that.
    I want to talk a little bit about essential workers and--
and the hero pay that they have received. Some--some have 
fashioned it as a hero bonus, you know. I've had an awful time 
here in--in the Boston area with my nursing homes. I've had, 
you know, 20, 30, 40 residents of nursing homes pass away, 
and--and the--the situation is so precarious that many 
employees, because they are traditionally low paid, many of 
them are--are men and women of color. They're--they're low-
benefit jobs. They weighed that balance and said I'm--I'm not 
going to put myself at risk, you know, my family at risk by 
going to work every single day.
    For many of them, that hazard pay, that hero pay that was 
provided for by--provided for by their employer was the 
difference for them that--that, you know, some people--we lost 
about 17 employees at one big nursing home, and it just put 
more and more pressure on the others who were able to stay. 
That--that hazard pay wasn't recklessly handed out by faceless 
bureaucrats. That was actually the--the management of--of those 
businesses that said we need people to respond and to be on the 
job, even under these very difficult situations.
    So, you know, in--in our state, and I know in many others, 
the Governors identified that we need to secure the supply 
chain for food. We need to secure the supply chain for--for 
healthcare, you know. I--I spent a whole lot of time that I 
shouldn't have been spending trying to get N-95 masks from 
China, and--and other countries, you know, to--to bring to my 
nurses and--and my healthcare workers at--at my coronavirus 
hospitals and my--you know, a bunch of my hospitals in this 
area. Not only that, but first responders, my police, fire, 
grocery workers. So, you know, this was really an all-hands-on-
deck situation, and I think the idea that Mrs. Maloney has, 
she's the--the lead sponsor on her, you know, Heroes Pay 
initiative is very well-focused on people who are required and 
deemed essential by the President of the United States, and by 
the Governors of our--our states as well. We--we know the 
systems that had to be secured, and like Ed Becote, those 
people knew full well the consequences to our society, and to 
the most vulnerable within our--within our society, if they 
didn't show up for work. They--their response was heroic, and I 
see it every day, whether it's the nurses or my postal workers, 
or UPS or FedEx, you know.
    The postal worker provides about 90 percent of the 
medicines and--and pharmaceuticals that are taken by our 
veterans. 90 percent of the--the drugs that go to our veterans 
are handled by letter carriers and postal clerks and--and mail 
handlers, and--and that's--so that's a critical, essential 
service. It's not hard to determine who's essential here, those 
people that are on the job every single day.
    So I--I applaud Mrs. Maloney's initiative. I think we can 
work it out. I think we need to remember, and it's not hard to 
remember, you know, Ed Becote and--and his commitment. He 
sounds like a wonderful, wonderful man, and his--his service 
was heroic in Brooklyn. You know, I know there were a lot of--a 
lot of his brothers and sisters in the SEIU, 1199, that do that 
job every single day, and--and I think it's important for us to 
remember that, you know.
    Mr. Gomez. Mr. Lynch, your time has expired.
    Mr. Lynch. I'm sorry. OK. I yield back. Thanks for your 
courtesy and your indulgence, Mr. Chairman. I appreciate that. 
Thank you.
    Mr. Gomez. Of course. Of course.
    Now, Mr. Higgins, you're recognized for five minutes for 
questions. You may now unmute yourself.
    Mr. Higgins. Thank you, Mr. Chairman, and I thank our 
panelists for appearing virtually with us today.
    I'd like to say at the outset that this 21st century 
technology that we're--that we're using today, or we're 
attempting to use, I think it's good that it's tested. However, 
I--I must say respectfully that I protest to the--to the venue. 
I believe that this type of technology should be used for 
congressional business only when the U.S. is under very serious 
attack. I've said before that America has been impacted by a 
virus. We have not been invaded by an army, so I respectfully 
urge my colleagues across the aisle to encourage Madam Speaker 
Pelosi and the majority leadership to end proxy voting, and 
remote committee hearings. The Senate is operating in person. 
The White House is operating in person. And yet, the People's 
House, the House of Representatives, remains incredibly 
restricted as we've seen by our efforts today, forced to use 
technologies that I believe is best reserved for, perhaps 
never, but certainly for much more extreme national 
emergencies.
    Ms. Castillo, if I may talk to you for a bit, ma'am. I have 
a--a very high admiration for nurses and doctors, frontline 
medical professionals, and you gave a moving testimony 
regarding PPE and the lack of access to proper PPE. I thank you 
for clarifying the difference, ma'am, between effectiveness of 
an N-95 respirator used for an hour, versus a surgical mask 
used all day or longer.
    I'd like to have my staff reach out to you at a later date 
so perhaps you could work with us on some projects that we have 
regarding PPE in the future.
    So, I ask you, ma'am, regarding PPE, have you in your--in 
your career, Ms. Castillo, have you ever seen such a massive 
demand for PPE at one time for medical professionals across the 
world?
    Ms. Castillo. Well, this is the first pandemic, and it's a 
global pandemic, so the--no, I have not seen it this 
extraordinary need.
    Mr. Higgins. No.
    Ms. Castillo. The numbers are massive. That being said, we 
anticipated that we would have--that this pandemic would have--
I mean, we had plenty of warning, and so, in January----
    Mr. Higgins. Let me ask you about that, if you don't mind, 
in the interest of time, and I greatly respect your testimony, 
as I do your profession. And let me say that--that nurses and 
frontline medical professionals should have access to all the 
PPE they need: gowns, respirators, face shields, gloves, 
everything they need to get their job done. Your--your 
testimony has--has clarified what I believe to be true as well 
and many of my colleagues on both sides of the aisle. We concur 
that as a Nation, we will come out of this--this initial phase 
of this pandemic, with a stronger infrastructure and a greater 
distribution of PPE. And I do think it's notable that--that 
China as a nation and their--their government leadership 
purposefully delayed the release of important data and--and 
hoarded--began gathering and hoarding PPE from across the world 
at a time when they were restricting our true knowledge of what 
was going on.
    So, I would like to be able to work directly with you, 
ma'am, my staff, if--if you'd be willing, as we address the 
future needs for PPE. Thank you again for being here, and all 
the panelists.
    Dr. Roy, if--if I could ask you for a moment, sir. I'm 
particularly concerned, if you would address the challenge to 
seniors in America because of the economic impact. There's 
nothing healthy about repossession or unemployment, 
foreclosures, eviction. Stress and depression are known 
killers, and loneliness is to be counted amongst that factor. 
Our elders across the country depend upon family interaction on 
a regular basis. Please, in my remaining few seconds, respond 
if you would, Dr. Roy, about how you feel about what we can do 
to protect our seniors from this and how they've been impacted.
    Mr. Roy. Well, thank you, sir, and I would say that, you 
know, as I have alluded to in my opening remarks and my written 
testimony, we needed to, and still need to focus our attention, 
our energies on reducing the spread of COVID-19 among seniors, 
particularly vulnerable seniors in congregate facilities like 
nursing homes and assisted living facilities.
    If we do that, if we're testing everybody in those 
facilities, everyone who works in those facilities, making sure 
the staff in those facilities aren't going from one place to 
another place to another place and seeding those other nursing 
homes. We have to rescind these mandates at the state level 
that force nursing homes to accept COVID-infected patients.
    There's a lot we can do on that particular policy area, and 
if we do that, we can restrict and--and suppress the spread of 
COVID-19 in the elderly population, because otherwise, they're 
going--their economic activity and their social lives, their 
emotional lives, their family lives are going to be suppressed 
for a much longer period of time than everybody else's.
    Mr. Higgins. Yes, sir. Thank you. And Mr. Chairman, thank 
you for your indulgence. I yield.
    Mr. Gomez. Thank you so much, Mr. Higgins.
    Mr. Connolly, you're now recognized for five minutes for 
questions. You may now unmute yourself.
    Mr. Connolly. Thank you, Mr. Gomez. And if Carolyn is still 
on the--on this hearing, we wish you all the best, Carolyn, and 
hopefully, the results come back not positive.
    I would like to begin on a personal note. I heard Mr. Hice 
and Mr. Higgins criticize the decision to hold this hearing 
pursuant to the rule change in the House virtually. And like 
them, this is not ideal. I would prefer to be back at the 
Capitol and doing business as usual with my full complement of 
staff in the office. But let me say to my friends on the other 
side of the aisle, please stop making this a political talking 
point.
    This is about life and death. This is about people at risk. 
I lost a good friend of 40 years to COVID-19 two weeks ago. Two 
of my staff were diagnosed with it. I've got friends throughout 
Northern Virginia who have had to go to the hospital or stay at 
home and quarantine because they've been exposed.
    The chairman of this committee is in quarantine because 
she's been exposed and is awaiting the results of a test and is 
not feeling well. Please. Can we at once come together and 
admit that we're doing the prudent thing to prevent people from 
getting sick, to prevent Members of Congress from becoming 
vectors of this illness, of this virus? That's the motivation. 
And to subscribe baser motivations to me does a disservice to 
all of us, and I wish we would cease and desist on that line of 
argument and that political talking point.
    Mr. Perrone? Mr. Perrone?
    Mr. Perrone. Yes, sir.
    Mr. Connolly. Oh. Thank you. Thank you for being here, and 
let me ask you a question. It may be a little bit leading, but 
you--it really struck me what you said about the fact that 
you--you know, frontline workers in grocery stores are--feel 
threatened when customers come in refusing to wear a mask, 
because those customers put them at risk and other customers at 
risk. And all of a sudden, it becomes a more menacing 
environment.
    I know it's a political question, but one of the reasons it 
seems to me that that is going on in large numbers is because 
the President of the United States has himself decided that he 
will not wear a mask. And he's done it in a way that comes 
across as almost defiant, and seems to send a signal to a large 
group of his followers that wearing a mask is a political 
statement, and not wearing a mask is also a political 
statement, and the health consequences kind of get forgotten, 
or diminished as a priority. Do you believe, Mr. Perrone, that 
the President of the United States not wearing a mask 
deliberately contributes to the situation your members find 
themselves in with respect to non-compliant customers?
    Mr. Perrone. Congressman, let me say the following: I think 
that it would be more helpful that in situations where he was 
in the public arena, like when he went to the--the Ford plant, 
that he would wear a mask just like everybody else would. I 
think that would be more helpful. I--I am hesitant to----
    Mr. Connolly. If I can interrupt you, Mr. Perrone. I think 
it's a little more than it would be helpful. It's actually a 
requirement in the Ford plant. For example, when he recently 
went to Maine to a swab-producing facility, because he didn't 
wear a mask, they had to destroy the swabs he was reviewing 
because of potential contamination. So, that's more than it 
would be helpful. That's actually a violation of floor rules, 
and in the case of the Maine factory, actually requiring the 
destruction of the PPE he was there to look at.
    Mr. Perrone. Well, Congressman, here is what I meant by 
being helpful. It would be helpful as it relates to the--the 
population so they don't necessarily think that it is political 
because it's not. This is science-based, this is not 
politically based, and--and it doesn't have anything to do with 
politics. Look, in my--my members, quite honestly, are tired of 
the blame game, whether or not it's the blame game about having 
a hearing like this, or whether or not it's a blame game about 
who's responsible for the problem.
    Look, we have a virus in this country that--that is 
affecting people in a very negative way. There's no question 
about it. It's affecting them economically; it's affecting them 
as it relates to their health; it's--it's certainly affecting 
certain people as it relates to the number of deaths that we've 
seen, over 100,000, you know. And where I'm coming from at this 
point in time, to represent my members, is we need Congress and 
all our leaders in this country to act together to fix the 
problem that we basically have, or at least----
    Mr. Gomez. Mr. Connolly, your time has expired. Now----
    Mr. Connolly. Thank you, Mr. Gomez.
    Mr. Gomez. Thank you for your--your questions.
    Mr. Massie, you are now recognized for five minutes for 
questions. You may now unmute yourself.
    Mr. Massie. Thank you, Mr. Chairman. Appreciate you holding 
this hearing.
    I believe that Congress should show up and do our jobs. If 
the nurses are showing up for work, and the grocery store 
workers and the truckers are driving and the farmers are 
working, I believe we should be there working. Of course, I 
appreciate that we're doing this hearing online and remotely. 
It's much better than not having any hearings at all, but we 
know we could do a better job if we were in person. I do think 
it would be reasonable to tell our staff that they could stay 
at home, but we should--we should, I believe, be leading the 
charge here.
    I am concerned about the workers at--at the meat processing 
facilities, and whether they are getting the appropriate PPE, 
and whether the policies have changed there, and then also, 
what the effect is on productivity. So, I would like to ask Mr. 
Perrone just to speak generally maybe for about a minute. Do 
you believe that we're getting the right equipment, the PPE, to 
the workers at the meat processing facilities? I've heard from 
the USDA early on. They told me everything was fine, and I 
wasn't buying it then. I believe that these issues are going to 
be long term. Slowing down the lines or--or increasing the 
spacing may be a reasonable concession to preventing spread in 
these factories.
    Can you also tell us, what do you think it is, Mr. Perrone, 
about the factory conditions that make them one of the most 
likely places for somebody to have COVID, or to get COVID 
outside of a nursing home?
    Mr. Perrone. I think that one of the reasons is much like 
President Costa mentioned earlier as it relates to the volume 
of air in the facility because they are in a, you know, 
processing plant, and there has to be a high volume air 
conditioning system in that facility in order to make sure it 
stays cool enough in there to process the meat. In addition to 
that, it's the humidity in the air at the same time that 
doesn't allow the virus or the particles, because they're 
aerosol to evaporate very quickly and ultimately eliminate the 
problem.
    Now, you asked me about whether or not there's enough PPE 
in--in the facilities. Look. Because the conditions are so 
difficult, and we had to do layered PPE that we had 
conversations with--with our--you know, our management teams, 
layered PPE, meaning shields around the workers, face shields 
and masks, because if they just went in there with an NP-95 
mask that--that Bonnie Castillo talked about, the problem is 
the--the humidity inside the facility would ultimately attach 
itself to the mask, and it would be like those workers were 
being waterboarded.
    So, is there equipment that would be better in order to 
better protect them? Yes, you could--you could go to an A-100 
respirator that might have the respirator pack on the back much 
like you see in some of these biological labs that we've seen. 
That may be better. Then you could actually bring people closer 
together if you were concerned about the productivity, because 
you do have to have spacing if you don't have that higher level 
of PPE.
    So, here is what's going on now. Do I think productivity 
has been cut down? Yes, I do. I think we're probably anywhere 
from 75 to 80 percent of our full productivity. Our kill floors 
are operating around the same level as they were, before, but 
not the processing locations because of the close proximity 
that you have to be and next to the person next to you. I don't 
know if that's what you were looking for.
    Mr. Massie. Yes, and I appreciate that.
    Mr. Perrone. That is--that is what's going on in those 
plants.
    Mr. Massie. That's an interesting perspective on the masks, 
that the--even the N-95 isn't--may not be sufficient in those 
conditions. I hadn't considered that before. I am a proponent 
of any time that we wear a mask, as long--as soon as we get the 
manufacturing pipeline solved, people should be wearing N-95 
masks instead of homemade masks, because I think it's 
doubtful--the science is doubtful on whether a homemade mask is 
really going to prevent the wearer from getting the virus, and 
it may not even be very effective in preventing those exposed 
to the wearer from getting the virus. So, I'm a proponent of 
science-based and--and using the masks that are appropriate.
    Let me just ask Mr. Roy a question very quickly. Mr. Roy, 
I'm looking at your testimony here, and it really strikes me 
that a few states have had a really high incidence of COVID 
within nursing homes per 10,000 long-term care residents. Can 
you explain why that might be, Mr. Roy?
    Mr. Roy. Yes. Well--hi, Mr. Massie. It's--there are a 
number of factors, and we're actually actively researching 
this. In some previous testimony I gave to the House 
Coronavirus Select Committee last week, I went into some of our 
analyses, our preliminary analyses. We tried to find 
correlations between nursing home fatality rates and other 
indicators, such as a high percentage of Medicaid patients in 
nursing homes, or a high percentage of African Americans.
    At the state level, at least, we didn't find those 
correlations. We may find more data once--now that the CDC is 
collecting data by facility, we can do a more granular 
assessment, so I expect to have some analyses next week on that 
topic.
    But broadly speaking, what you see is that there's a--the 
two factors that stand out intuitively. One is where the 
pandemic has been worse, but that's also related to the way a 
lot of those northeastern states, in particular, forced nursing 
homes and assisted living facilities to accept COVID-infected 
patients being discharged from hospitals. So, those appear to 
be the biggest drivers, but that analysis is still ongoing.
    Mr. Massie. OK. My time has expired.
    Thank you for indulging me, Mr. Chairman.
    Mr. Gomez. Of course, Mr. Massie.
    Now we have Ms. Wasserman Schultz. You are recognized for 
five minutes for questions. You may now unmute yourself.
    Ms. Wasserman Schultz. OK. Thank you so much. Let's make 
sure my head is in the shot here.
    Over the last several months, I've heard from essential 
workers who have struggled to get the PPE that they're--that 
they need to do their jobs safely. I've heard from nurses who 
are using homemade masks as they continue to treat patients, 
delivery workers without cleaning supplies to sanitize their 
vehicles, security workers who are on the job despite shortages 
of gloves and protective eyewear.
    For me, those stories illustrate both the bravery and 
selflessness of the American work force, and also, the Trump 
administration's failure of leadership in a time of crisis.
    The Trump administration's lack of a coherent Federal 
response to this pandemic, including failure to fully invoke 
the Defense Production Act to produce PPE put a countless 
number of people at risk and cost public lives. I chair the 
Military Construction and Veterans Affairs Appropriations 
Subcommittee, and I focused on whether the VA has an adequate 
supply of PPE, and is directing their facilities to distribute 
sufficient amounts of PPE to keep their work force and veterans 
safe.
    Congress provided the VA almost $20 billion in the CARES 
Act, and with that money, we expect the VA to provide PPE for 
every person working in and entering veterans' health 
administration facilities. But just yesterday, the top health 
official at the VA admitted that they may not have enough 
supplies to withstand a second wave of the virus.
    So, my first question is of Ms. Castillo: You lead an 
organization that represents 155,000 nurses, including nurses 
that work at VA facilities. How would you describe their access 
to PPE for your members that are working at VA? Also, would you 
say the experience of your work--your members, who are working 
at the VA facilities, is similar to your membership more 
generally?
    Ms. Castillo. Well, so in the VA system, their PPE has been 
woefully inadequate. When we talk about PPE, I'm talking about 
head-to-toe PPE. So, in addition to the respirators, you need 
the head coverings, the shields, the coveralls, the booties. 
All of that has been insufficient. And yes, it does mirror the 
private and public sector, the other hospital systems as well. 
We're seeing that throughout, including in the P--in the VA, 
where we've actually had to utilize donations to get supplies 
to our nurses, and we have done that because we literally have 
had to fight for every--you know, tooth and nail for every bit 
of PPE for our nurses.
    Ms. Wasserman Schultz. Yes. I've heard that throughout, and 
I just recently--Dr. Stone actually announced, he went through 
the numbers, and my own staff has gotten the numbers. And if we 
have a second wave, if you're already struggling to--to keep up 
with--with the PPE you need, and then we have a second wave, 
there's going to be a very significant problem with keeping our 
workers safe.
    So, the Defense Production Act, what do you think about the 
President's refusal to fully implement the Defense Production 
Act?
    Ms. Castillo. It's cost lives. We actually need to fully 
invoke the production--the Production Act, and we can. I mean, 
one thing that I want to say is we're dealing with a virus that 
is novel, and we're learning more and more about it each day. 
The PPE is not novel. We know what protects us, what will 
protect frontline workers, and what will protect patients, and 
we know how to make it. And so we--we need to have domestic 
production and we need enough production.
    Ms. Wasserman Schultz. Absolutely. It's grossly 
irresponsible not to have done that already. Thank you so much.
    Ms. Becote, when--when we think about the shortages of 
vital supplies for healthcare workers, sometimes we tend to 
only think of doctors and nurses. But, you know, there are so 
many hospital employees that are not doctors or nurses. They're 
patient transporters, custodians, medical technicians, and they 
keep the hospital functioning. They--you know, and I'm talking 
about people like your husband, Edward. I'm so sorry for your 
loss. Can you describe his access to PPE when he went to work? 
And do you think that inadequate access to PPE played a role in 
his infection?
    Ms. Becote. I'm sorry. Sorry. I couldn't make out what you 
said.
    Ms. Wasserman Schultz. You couldn't hear any of what I 
said?
    Ms. Becote. Just part of it. I'm sorry.
    Ms. Wasserman Schultz. OK. My--my question is because your 
husband, Edward, was not a doctor or a nurse like they usually 
think of--Mr. Chairman, if you wouldn't mind adding a little 
bit, a few seconds to my time so I can re-ask my question. I'd 
appreciate it.
    Mr. Gomez. Please ask your question.
    Ms. Wasserman Schultz. Thank you so much.
    So, what I referred to was that doctors and nurses are 
usually who are thought of as frontline healthcare workers, but 
people like your husband, you know, who provide support to 
those--those frontline healthcare workers also are a critical 
component of the overall delivery of care. Can you describe 
your husband's access to PPE when he went to work, and do you 
think that inadequate access to PPE might have played a role in 
his infection?
    Ms. Becote. Yes. I think when it first started, he wasn't 
equipped. I think they were giving it to the doctors and the 
nurses first. As the virus started to progress, then I think 
people were taking it more seriously. They gave it--they 
finally gave it to him, but I think by that time, he was 
already exposed. But I do think if he had the PPE, he would 
have stood a chance of not contracting it.
    Ms. Wasserman Schultz. Thank you. Thank you, and again, I'm 
so sorry for your--for your loss, and thank you for, you know, 
his commitment to caring for people.
    Mr. Chairman, this is just unconscionable that we have left 
so many people without protection that they need, and so many 
lives have been lost as a result. I appreciate your indulgence. 
My time's expired. I yield back.
    Mr. Gomez. Thank you.
    Now, Mr. Grothman, you're recognized for five minutes for 
questions. You may now unmute yourself.
    Mr. Grothman. OK. Can you hear me now?
    Mr. Gomez. Yes.
    Mr. Grothman. Good.
    OK. First of all, for Mr. Costa, I'd like to thank you for 
the anecdote. I was not aware that the subways in New York were 
not being cleaned. I just apologize for the failure of the 
government out there. Between that and the nursing home thing, 
it's just--it's just stunning that people got stuck with such 
lemons out there, so I apologize for that.
    Second, I'd like to talk to Ms. Castillo. One of the 
problems I have in the state of Wisconsin--I love nurses. I 
love to talk to nurses. I think sometimes you find out a lot 
more from nurses than doctors as far as what's going on in 
our--our healthcare system.
    One of the problems we have here is there was a fantastic 
overestimate of the number of people who were going to wind up 
hospitalized, and as a result, two things happened:
    First of all, a lot of non-essential medical things, which 
I would consider essential, things like putting in a new stem, 
repairing a valve were not done, so perhaps people are dying, 
and there's some evidence the reason for the uptick in death 
rate in this country is things not being done that should be 
done--that should be done.
    And second, we've had to lay off healthcare workers instead 
of nurses. I know that's going on in Wisconsin. Is that 
something that's going on nationwide? And what can we do to get 
these--if it's true, what can we do to get these hospital 
administrators to bring back the nurses to work and open up 
these hospitals?
    Ms. Castillo. Well, I know as a nurse, we always want to--
it's better to be prepared and to prevent. So we--we know what 
we should have been doing in anticipation of this pandemic, and 
those that did, certainly, you know, we applaud that. That 
being said, we do see some hospitals take advantage of this 
particular moment. instead of focusing on ensuring that they 
have adequate protections for workers, they're looking at 
things like furloughs, making nurses--cutting down their hours 
and/or closing essential services like labor and delivery. In 
Santa Clara County, there's a hospital that literally closed 
down labor and delivery, and so, there was a layoff of nurses.
    You know, there're certainly mothers who are still needing 
to deliver, and now they have nowhere to go. They have to go 
many, many miles.
    So, you know, we're--we are fighting back on this as well, 
because----
    Mr. Grothman. People aren't getting mammograms, they're not 
getting colonoscopies, they're not getting screenings other 
screenings for cancer because the hospitals way overestimated 
the number of people who are going to be there. Now, I can 
understand the hospital doing that in March. But, you know, as 
time went on, it's become very apparent that the so-called 
experts in Washington, you know, overestimated things, and I 
just wondered if you are doing what you can to weigh in.
    Ms. Castillo. Yes. In--in our mind, if we would have had 
adequate amounts of PPE, so in other words, that hospitals were 
required to have sufficient supplies as stock, for example, 
for, like, a year, then, you know, we wouldn't have had--we 
would have been able to treat all of our patients. So, in other 
words, you know----
    Mr. Grothman. I'll tell you. And you can tell me if this is 
true nationwide. I think in Wisconsin, the problem is not a 
lack of PPE, the problem is they were shutting down whole wings 
in anticipation of this deluge of patients that never showed up 
and laid off people.
    Ms. Castillo. My understanding is the shortage of PPE is 
nationwide, and that's from hearing from nurses where we 
surveyed nurses across the Nation and have responses from 
nurses in 50 states.
    Mr. Grothman. OK.
    Ms. Castillo. They were being actually asked to use masks.
    Mr. Grothman. Dr. Roy.
    Mr. Roy. Yes, sir.
    Mr. Grothman. One of the things that concerns me here is 
Congress has already spent far, far, far too much money on 
this, and we are driving the next generation very deeply into 
debt. In other words, it's kind of an odd thing. Usually you 
want the next generation to be wealthier than your generation. 
We're kind of going the opposite way. We're running up the 
credit card and making sure the next generation is broke.
    I certainly have a lot of people in my district who are 
financially harmed because of the COVID, and they wish they had 
their jobs. They don't have their jobs. They wish their 
businesses were keeping above water. Instead, they're maybe 
going through bankruptcy and wipe out their life savings. I 
wonder if you could comment on the degree to which we already 
are throwing money at so many different people. On the other 
hand, the people that are eventually going to have to pay it 
back, they may be going under bankruptcy because of the 
situation.
    Mr. Roy. This is an incredibly big problem that we write 
about a lot in our FREOPP.org paper on reopening the economy. 
It's a double whammy, right. The economic destruction from--
from a long lockdown, the fiscal spending--it's a triple 
whammy. The fiscal spending that Congress is putting forward in 
order to compensate for the economic lockdown; and then the 
fact that the average small business has less than a month of 
cash on hand. For urban business, for minority-owned 
businesses, it's more like two weeks of cash on hand.
    So, lots of those businesses have already shut down 
permanently, and every week that goes by, more and more of 
those smaller businesses are going under permanently, which 
means that as we wait, recover the economy, maybe some of those 
jobs will come back, but we'll have a much more consolidated 
economy with a few very large corporations running our economy 
rather than a more diverse and distributed economy that we all 
care about. Thank you.
    Mr. Gomez. Your time has expired. Mr. Grothman, thank you 
for your questions.
    Mr. Sarbanes, you are now recognized for five minutes for 
questions. You may now unmute yourself.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. I 
appreciate the opportunity, and I thank the committee for 
pulling together this very, very important hearing on our 
frontline workers. As we've come to understand, there's this 
whole unseen work force out there that doesn't normally get the 
attention it deserves, but it needs circumstances. Of course, 
they are in focus, and I think one of the big challenges for us 
as policymakers in this hearing and will help us in this 
challenge is to start thinking about, how do we continue to see 
this work force on the other side of the pandemic? We are 
learning lessons now that we need to carry with us.
    Now, when we get back to whatever the new normal is, is 
that going to be a new normal that has the kinds of wages and 
benefits and workplace protections for this work force that so 
many Americans have uncovered and come to know over the last 
two or three months? Are we going to continue to see that work 
force on the other side? And I hope that hearings like this 
help us sort of fortify our commitment to that, so I want to 
thank you for the hearing.
    I also wanted to especially thank Ms. Becote for her 
testimony. We certainly send our condolences to you, and we 
thank you for your courage in--in sharing your story. It's very 
compelling, and I think it will make a tremendous difference as 
we consider these issues going forward.
    I did want to specifically address some questions to Mr. 
Costa. I want to thank you for your advocacy on behalf of 
transit workers across the country, the ATU, it's a very 
effective organization, and for speaking up for those concerns. 
I'm proud that your international headquarters is located in 
Maryland's Third District, which I represent.
    The--the frontline workers that you represent are a little 
bit different from other frontline workers in the sense that 
they are the folks that transport a lot of those other workers. 
So, in a sense, you intersect with this conversation two ways, 
and I want to thank you for--for what your members do every 
single day.
    We know that there's been a lot of layoffs as a result of 
the pandemic, and we know that, for example, in Washington, DC, 
the ridership is down 95 percent on the Metro. They're losing 
$50 million per month during the pandemic.
    Across the country, we know bus drivers and the rail 
workers are being laid off. Could you speak to that a little 
bit, what the--the economic impact is on your work force? We 
talked about a lot of the safety issues, but if you can talk 
about just these layoffs and cutbacks, I would appreciate it.
    Mr. Costa. Yes. Thank you for the kind words. Yes, we are--
we are--our headquarters in your district, but thank you.
    As far as--the CARES Act helped a lot, keeping--keeping the 
buses running, and I believe, as I said before, keeping the 
overcrowding from happening. Our membership is down about 10 
percent we've lost to furloughs or layoffs at this time, due to 
the pandemic. And, matter of fact, this area has not--as states 
are opening up, we are seeing overcrowding starting to happen 
where people are getting on the bus which I--I voiced my 
concerns about that. But about 10 percent have--have left.
    The private sector is hurting us more. It seems like they 
didn't take advantage or--or they're--or actually, they're 
taking advantage the wrong way. They're not doing the right 
thing with the CARES Act money, and they're trying to basically 
utilize that money to put in their pocket or offset the cost 
for profits instead of doing like many of the public sectors 
did where they brought the--they listened to us, and we 
educated them on what that bill meant by keeping the buses and 
the workers at work to keep the economy going and keep--and 
keep it stronger.
    Mr. Sarbanes. I'm sure that--I'm sure that you are very 
apprehensive about what's coming as we get closer to July 1, 
which is the day by which most states and most municipalities 
have to balance their budget across the country.
    As you know, the HEROES Act is trying to bring significant 
assistance to state and local governments in terms of their 
budgets. Clearly that will have an impact, a ripple effect on 
your workers, so I assume that you are strongly in support of 
the HEROES Act and bringing that assistance to bear.
    Mr. Costa. The budget crisis for the authorities is there. 
They're going to need help. And, once again, I hope our 
Representatives and our Congress and Senate does the right 
thing for the American jobs that are here and focuses on 
operating assistance to keep the agencies afloat until we get 
out of this crisis and bring the cities back.
    So, yes, in the HEROES Act, as I said before, very few of 
our members have good insurance policies, and this would help 
offset the 53 members that I have, not to mention the TWU in 
New York, which is over a hundred members that have passed to 
the COVID virus, would help their families and keep--remember 
our fallen heroes that kept the lines going, and keeping our 
nurses and doctors in there to help, you know, our country and 
our families stay alive.
    Mr. Gomez. Mr. Sarbanes----
    Mr. Sarbanes. Thank you very much.
    Mr. Gomez [continuing]. Your time has expired. Thank you, 
Mr. Sarbanes.
    Mr. Comer, you're now recognized for five minutes for 
questions. You may now unmute yourself.
    Mr. Comer. Well, thank you very much, Mr. Chairman, and I 
appreciate you having this hearing on supporting essential 
workers. I think there's clearly bipartisan support to support 
the essential workers that have been mentioned thus far, the 
healthcare frontline workers. Obviously, the people that are 
involved in processing food, we've seen outbreaks at different 
processing plants that have significantly disrupted the food 
chain, and we can't have that, so we all support that.
    But one group of essential workers that's been in the news 
a lot in the last few days that really haven't been mentioned 
during this hearing are law enforcement personnel. We're very 
blessed in America to have some of the best and brightest who 
work in law enforcement, and it troubles me deeply to see on 
the news movements in some of the cities and even references by 
some of our colleagues in Congress to defund the police.
    Of all the things that I've heard in my 3-1/2 years in 
Congress that I disagree with, that I think isn't very good 
policy, I think that the movement to defund the police is 
probably the dumbest thing that I've ever heard of. And it's--
it bothers me deeply because we have to have law enforcement. 
Especially in times where, you know, there's a lot of anxiety, 
there's a lot of disagreement, we need to maintain law and 
order, and our law enforcement personnel put their lives on the 
line every day.
    So, I want to go on the record, and I hope that every one 
of my colleagues in Congress will go on the record to say that 
we strongly support our men and women in law enforcement, and I 
certainly, certainly never want to defund the police. So, I 
wanted to get that out there.
    Next, Mr. Chairman, I've been blessed the last two days in 
my congressional district. I've visited factories that are 
making PPE. These are businesses--one was an existing business 
that expanded their supply--their product line. Another is a 
new business that was formed that went into an abandoned 
garment factory, and they're making PPE, and I think that's 
great.
    I think that what we saw happen with China, where they 
obviously misled the world about the coronavirus, and then they 
hoarded their PPE to use for themselves at the expense of 
American hospitals, American nursing home facilities, and 
American healthcare workers.
    So, we--I believe there's bipartisan support in Congress to 
ensure that that PPE is manufactured in the United States. So, 
we've got companies in Kentucky and all across the South and 
the United States that are willing and able and currently 
producing and manufacturing PPE--caps, gowns, masks, gloves, 
things like that--but they're still competing against Chinese 
companies. There are still different government agencies that 
are awarding contracts to companies that are manufacturing this 
PPE in China.
    I would like to extend an invitation to my colleagues 
across the aisle, my Democrat colleagues, to come together, and 
I would love to work with the majority party to see that we can 
do everything in our ability to see that this PPE is 
manufactured in the United States of America, and we don't have 
to ever depend on China, especially considering all the 
wrongdoing that they have displayed because of the COVID 
outbreak. I don't ever want to depend on China for that 
essential PPE again, and I think that that's something that 
needs to be discussed in this hearing talking about essential 
workers.
    My question that I want to ask is to Dr. Roy, and it 
pertains to the--you know, there were proposals in the last 
bill we voted on, that I voted against, but it passed the 
House, would extend the unemployment an additional $600 a week 
passed its current expiration date of July 31. The 
Congressional Budget Office recently examined this proposal and 
found that roughly five of six recipients would receive 
benefits that exceeded the weekly amount that they were earning 
from employment prior to the COVID-19.
    My question to you is, how did the additional unemployment 
benefit shift the incentive from going back to work to staying 
at home?
    Mr. Roy. Well, Mr. Comer, as you know, we've heard from 
many, many, many businesses that have said they basically can't 
hire workers, they can't reopen their restaurant or their 
retail store or their auto mechanic shop because their workers 
are getting paid much more to stay home than to work. And you 
can't blame the workers for making that choice----
    Mr. Comer. Right.
    Mr. Roy [continuing]. Because the disparities are so great. 
So, that's--that program was clearly designed very poorly, and 
it is my fervent hope that we listen to those proprietors and 
employers as we try to get the economy going again.
    Mr. Comer. And I agree with that.
    Mr. Chairman, I have an op-ed that was posted by The Wall 
Street Journal that I would like to submit to the record 
explaining exactly what Dr. Roy just said and the negative 
impact that it's having on the states that are truly trying to 
reopen and a lot of the businesses, especially in the 
restaurant industry, that are struggling to stay in existence.
    Mr. Gomez. Thank you, Mr. Comer. I'm going to object to it 
right now, because we do have a process of--I reserve the right 
to object, but I do not intend to object, in order to minimize 
the disruptions and to be fair to everybody.
    We requested that any exhibits be circulated in advance via 
the Oversight clerk's email in the hearing notice. If you have 
not sent the item yet, we ask that you do so now. We want to 
ensure that we have seen the copies of all materials before 
they go into the hearing record.
    So, I'm going to hold off on agreeing until after we ensure 
that we've received and seen the documents. I thank the member 
for the request. The member may be assured that his request 
will be dispensed with before the end of the hearing. So, if 
you can email it, we'll take a look at it.
    Mr. Comer. All right.
    Mr. Gomez. Thank you, sir. And now your time is expired.
    Ms. Lawrence, you are recognized for five minutes for 
questions. You may now unmute yourself.
    Mrs. Lawrence. Hello. Thank you so much for having this 
hearing.
    Since the beginning of this pandemic, communities of color 
have been disproportionately impacted by large numbers of 
hospitalizations and deaths. I represent a majority minority 
district comprised of 18 cities, including Detroit, Southfield, 
Pontiac, as one--also as one of the hotspots not only in 
Michigan, but in the country. The African American community, 
minority community, has been devastated by COVID-19.
    Communities of color, as Mr. Odom stated, make up a large 
percentage of workers who are employed in essential industries. 
These essential workers are on the front line at hospitals, 
grocery stores, food processing facilities, and transportation 
services.
    My question I would like to direct to Mr. Odom. Are there 
any solutions you would recommend that the Federal Government 
take and put in place to limit the disparate impact that the 
coronavirus has had on minority essential workers?
    Mr. Odom. Thank you for the question. They're really quite 
simple. When there's a fire, we go to the fire. When there's an 
emergency, we go to the emergency. In the COVID space, we need 
to know--we need to make sure that we are prioritizing things 
like testing. We can't put our head in the sand or just have 
randomized testing. We've got to go to where we know the 
infection is, so that we can identify those folks, quarantine 
them, hospitalize them, get things going. That's one thing on 
the health front.
    We've also got to be able to implement the very rigorous 
tracing regime as well, both by human means and technological 
means. So, we've got to be able to sort of find out where the 
disease is. This is all in the bucket of finding out where the 
disease is.
    Our economies have been devastated by the--what I call the 
self-induced coma that the pandemic has put us in. We've got to 
be able to support our businesses. Our businesses are the 
lifeblood, and they're the biggest employers in our 
communities. We had a very uneven rollout--that's a charitable 
description--of the Paycheck Protection Program. We've had an 
opportunity now to go back and try to fix that to make sure 
that minority depository institutions and CFIs are 
participating, and it looks like, in the second round, the 
average size of the loan is going down, and we think that means 
that maybe those funds are flowing to where they need to be.
    So, on the health front, let's go to where the disease is. 
On the business front, let's support these businesses. We've 
had something--rejection rates of something like only 1 out of 
10, 2 out of 10 people of color who applied for PPE even got 
the loan. So, we've got to do better in that regard.
    Mrs. Lawrence. Mr. Odom, I thank you for that.
    I want to take this moment as we're struggling in America 
right now with our race relations and the history of 
discrimination in our country that so many things have been 
exposed during this COVID epidemic that we have lived through. 
First of all, healthcare disparities. Second, the small 
business disparity for small and minority businesses, the lack 
of access to capital that we actually legislated for, the 
unintended consequence was that it would not go to these 
minority and small businesses.
    And then, last, I wanted to talk about the PPEs. The 
essential workers, it is unbelievable that they were made to go 
to work. I mean, it was required. You're essential, so you show 
up every day, and then the audacity of some of these 
corporations not to provide PPEs, to the fact that the Federal 
Government had to give funding to ensure that our workers were 
getting the money.
    And to everyone who lost their life during this pandemic, I 
just wanted to take this moment and say that--my humble 
condolences to everyone. In the Black community, we were 
devastated with so much grief, and people are wondering why 
there's such an outpouring. It has been layer upon layer upon 
layer.
    My last question, since I have the time, I want to ask 
about the PPE requirement. Do you estimate that the PPE 
requirement will be intact for the remainder of 2020? And, if 
so, what recommendations do you have for Congress to help 
companies and their members with this expense?
    I want you to know that I have introduced the PPE Tax 
Credit Act, and what it is, it will give up to $25,000 tax 
credit for small businesses and nonprofits to provide the 
personal protective equipment. So, I'm looking for anyone that 
can give me a comment on how--do you have any recommendations 
for Congress on how we meet this PPE requirement as we reopen?
    Mr. Gomez. Ms. Lawrence, your time has expired, but they 
can answer the question.
    Mr. Odom. I think it's been said before that the Defense 
Production Act is a real key here. It has not been used very 
aggressively. It's only been used very sparingly. We've got to 
be able to get our production capability up to meet the need, 
and we can't really do it just based on the grace of these 
companies. We've got to pay them to do the work, but we've got 
to use that tool in the toolkit, just like we did for food 
processing employees, right? We need our food and we need our 
protection. Both are equally wise areas to use the Defense 
Production Act.
    Mr. Gomez. Thank you.
    Thank you, Ms. Lawrence.
    Mr. Perrone would like to also answer that question, Ms. 
Lawrence.
    Mr. Perrone. Yes. I agree with Mr. Odom as well. We 
definitely need to add PPE to the Defense Production Act. It 
became very apparent to us that what was happening is that PPE 
was going to the highest bidder. I do believe that we needed to 
provide PPE to our healthcare workers and our first responders 
first; however, because of that, it was being very difficult to 
be obtained.
    I know that I've got one large major corporation that is 
discussing eliminating masks and providing masks for its 
workers, where they've got over 400,000 workers. If it's 
happening at a major corporation that--a Fortune 500 company, I 
guarantee you it's happening in smaller companies that we just 
got through talking about.
    So, thank you, Mr. Chairman
    Mr. Gomez. Thank you.
    Any other panelists want to make a--answer the question 
before I move on to the next.
    Mr. Costa. Yes, I'd like to say something.
    Mr. Gomez. Great.
    Mr. Costa. This is John Costa. And, yes, I think it was 
shameful that our government dropped the ball and did not--this 
President did not enact the Defense Production Act for all in 
this country that went on the front lines, for the nurses and 
the doctors, and I believe we could have saved many, many more 
lives. When this happened, we--communities, we did our own--we 
took care of our own, and what should have happened here, we 
should have taken care of our own. We need to go forward and 
take care of our own and make sure we produce it here and put 
people to work here to protect ourselves.
    Shameful, this President, this administration let so many 
people die on the fact of not having the protection that was 
needed and then later on said we needed it.
    Mr. Gomez. Thank you, Mr. Costa.
    Any other panelists? No?
    Thank you so much for--Ms. Lawrence, for your questions.
    Now we have Mr. Gibbs. You are recognized for five minutes 
for questions. You may now unmute yourself.
    Mr. Gibbs. Thank you, Mr. Chairman.
    First of all, I want to thank the essential workers for all 
their efforts and the challenges they went through, and 
hopefully this gets over and get back to normal.
    I also want to give my condolences to Ms. Becote for her 
loss, and I want you to know
    [inaudible] let those things happen again.
    I want to just mention quickly, Project Air Bridge, the 
administration that did the air bridge to get the PPE over here 
from Asia and elsewhere around the world, and also the Paycheck 
Protection Program. I think it's--you know, it's pretty much 
unanimous and the question--we just passed the Flexibility Act 
for that that saved a lot of jobs and a lot of businesses, and 
that's been a very good program.
    I think, Mr. Chairman, at some point, we need to have a 
hearing about the role of China and their hoarding of PPEs and 
their--and also now there are reports
    [inaudible] of hackers with the Communist Party of China 
that target our universities and pharmaceutical companies and 
probably--difficult in the development of a vaccine.
    During this hearing, I've had the honor--I saw there's 
three communities over this summer that
    [inaudible] for vaccines, so that's a move forward there.
    I do want to talk about, Ms. Castillo, in her written 
testimony, she talks about reusing single-use PPE as a 
dangerous practice and, you know, increased exposures to nurses 
and so on. But then she also goes on to say that 
decontamination of disposable respirators has not been shown to 
be as safe or effective and can degrade the respirator, they 
suspect.
    As some of you may know, a company here in Ohio, the 
Battelle, they were asked during the Obama Administration in 
2014 to work on, when there was the shortage of masks for 
Ebola, and they did two years of research, and it was peer 
reviewed by independent scientists and technology confirmed and 
published it was safe and effective for N95 masks to be 
decontaminated.
    Battelle, just a little background, it's the world's 
largest independent nonprofit research and development 
organization that has been tackling hard challenges for over 90 
years using science and technology. Well respected. They 
engaged in this, and it's been tested numerously by independent 
areas, CDC, Massachusetts General Hospital. Duke tests show 50 
decontamination cycles without degradation of the masks, and so 
on.
    So, I just wanted to say that I don't agree with Ms. 
Castillo's statement that decontamination of disposable 
respirators has not been proven to be safe. Also, FEMA has 
done--awarded the contracts and believed it was safe.
    And, Mr. Chairman, I do have--I want to submit for the 
record--it's been circulated--from FEMA on behalf of Battelle. 
I circulated a document showing--illustrating the 
decontamination method using the proven vaporized hydrogen 
peroxide process to kill bacteria of SARS-CoV-2 on masks, and I 
just want to make that clear[SA1].
    So, I don't know, Ms. Castillo, if you wanted to respond. 
I'll give you a chance to respond.
    Mr. Gomez. Mr. Gibbs, thank you for following the rules. 
Without objection, so ordered, submitting your documents for 
the record.
    Mr. Gibbs. Go ahead, Ms. Castillo.
    Ms. Castillo. Yes. So, there has not been scientific 
evidence enough to ensure that decontamination process are safe 
or effective. In fact, when we've received the masks back after 
this decontamination process, including Battelle, often the 
straps are loosened. The mask itself is deformed. So, the 
integrity of the material has been disrupted. Nurses are also 
complaining of headaches and smelling sort of a chemical smell.
    So, our concern is that, one, this is an unethical practice 
to use our healthcare work force and nurses and healthcare 
workers as sort of guinea pigs to experiment, essentially, with 
these masks. We--you know, as I have said before, what we need 
to do is fully invoke the Defense Production Act to manufacture 
the adequate amounts of PPE that we all need, certainly the 
frontline workers and all workers. And we need this for all--
for all of us--for the protection of all of us.
    Mr. Gibbs. Well, I think there's no doubt a new mask is 
obviously better, but I think when we had the shortages and the 
crisis going on here in the last couple of months, that this 
was an alternative. Obviously, maybe there are some issues, but 
we have to question the research that was done that said that.
    So, I'm out of time, so I yield back, Mr. Chairman. Thank 
you.
    Mr. Gomez. Mr. Gibbs, thank you so much.
    Ms. Speier, you're now recognized for five minutes for 
questions. You may now unmute yourself.
    Ms. Speier. Mr. Chairman, thank you.
    Let me also extend to our chairwoman my deepest good wishes 
for hopefully a negative test result and a very speedy 
recovery.
    And to Ms. Becote, I too was a widow, so I know exactly 
what you're going through, and you have my deepest sympathy and 
a huge hug. I hope that we can provide you some relief.
    Like our chairwoman, I have introduced legislation to 
compensate those who have passed from this virus and those who 
have been sickened by it as essential workers. H.R. 6955 is the 
Essential Worker Pandemic Compensation Act. It is a companion 
to the chair's bill in that it provides kind of immediate 
benefits that are tax free, that are not going to require those 
who are impacted to seek or obtain legal representation.
    It is patterned after the police--the Public Safety 
Officers' Benefit and Education Assistance Act, and it provides 
those who have succumbed to the virus as essential workers a 
lump sum of $365,000 and the educational benefits to their 
spouse and children of a four-year education, and for those who 
have become sickened by it, an amount that is equal to half 
that.
    So, it's a--I consulted with Ken Feinberg, who has been the 
expert on the 9/11 compensation program. His focus is to keep 
it simple and make sure that those who have lower incomes are 
not treated differently. This particular bill treats everyone 
the same. So, I want to thank both Mr. Costa and Mr. Perrone 
for endorsing the legislation.
    And I'd like to say to Mr. Perrone, your comment by your 
essential worker who said that the recalling of the heroes pay 
was a slap in the face, this is an effort to give them a kiss 
on the cheek. So, I hope that we are committed both as 
Republicans and Democrats to forge forward a plan that is going 
to treat people equally, that it will be tax free, that we will 
not encumber them by requiring them to have legal 
representation as well.
    To Ms. Castillo, I am deeply concerned about our ability 
moving forward to have the proper PPE in place. I've been told 
that FEMA plans to ramp up its supply of both gowns and N95s 
only to the extent that we continue to reuse those two PPEs, 
and I can't imagine that that is going to be appropriate over 
the long term, and we have no manufacturing whatsoever of 
rubber gloves.
    So, for a country that could put planes and ships into 
manufacturing in short order during World War II by using the 
Defense Production Act, and we're still trying to find a means 
by which we're going to manufacture gloves, which we don't do, 
or swabs, which, until very recently, we haven't done, to me, 
makes no sense. And I'm concerned that we don't have an idea of 
how much PPE we will need for essential workers in the next 
wave.
    So, Ms. Castillo, my question to you is, has your 
organization tried to come up with a figure to reflect what it 
would be for nurses?
    Ms. Castillo. Well, what we know--and we couldn't agree 
with you more. We know that reused will result in more 
infections and nurses and frontline workers falling ill and 
then out of the work force. So, you know, we know that even 
what is being produced right now, to the extent that it is, 
that we haven't felt it on the front lines. Even the HHS, their 
estimate is 52 billion. It is--you know, and we don't see that. 
We haven't seen that kind of production happening anywhere.
    But we--what we do know is that with--you know, really what 
we need is for Congress to act to fully invoke the Defense 
Production Act to produce adequate amounts of PPE.
    So, you know, we are--as I said before, we, you know, are 
insisting that we have what we need, the N95s, in our 
hospitals, in the facilities, and are literally just fighting 
tooth and nail, and, in some cases, bringing them from home. 
They're not exactly the grade of a mask that we would prefer, 
but we're actually having to rely on donations.
    And in this country, we know that we can do better and we 
have to do better. This is about the future, and we have to be 
learning from this experience, but we're not out of this 
pandemic. This pandemic is ongoing, and with reopening, we know 
that we--we expect to see further surges, and we--and so this 
is--there's no better time than now to actually start 
production of PPE, respirators, along with all the other PPE--
the other--as I mentioned before, the head-to-toe coverings are 
so essential as well.
    Mr. Gomez. Ms. Speier, your time has expired.
    Ms. Speier. Thank you. I yield back.
    Mr. Gomez. Thank you so much.
    Now, Mr. Roy, you are recognized for five minutes for 
questions. You may now unmute yourself.
    Mr. Roy of Texas. Well, I appreciate that. And by Mr. Roy, 
I assume you mean the gentleman from Texas on the committee as 
opposed to our witness, Mr. Roy, my fellow Austinite, who I'm 
delighted to have here as a witness. I've been confused 
multiple times today already. I've been stopped. Wait. I'm on 
now. But glad to join you all. Appreciate it.
    My friend, Avik or Mr. Roy, I appreciate you joining here. 
I actually have a few questions for you. I appreciate all the 
work you've been doing. FREOPP's been doing an exceptional job, 
I think, in getting a lot of the important data and information 
that needs to be known by the American people about what's 
going on.
    Just correct me if I'm wrong in my general terms--you used 
specific numbers--that, if I'm correct, that if you discount 
for New Jersey and New York, who've obviously been very badly 
impacted by the virus, that over 50 percent of the people who 
have been--who have unfortunately passed away are folks that 
have been in assisted living facilities or nursing homes. Is 
that a fair or roughly accurate statement, Mr. Roy?
    Mr. Roy. It's more than roughly accurate. It's based on the 
reporting of the data that we have. It's very accurate. About 
more than half the deaths outside of New York State have 
occurred in nursing homes or assisted living facilities.
    I share your confusion, by the way, when your name is 
called in Congress.
    Mr. Roy of Texas. Amen. Well, you know, is it also true--
so, roughly, 42 percent, right, even when you account for New 
Jersey and New York, and I think 80 percent of the deaths have 
occurred in folks who are 65 or older. Is that correct?
    Mr. Roy. That's correct, and all those details are in our 
written testimony.
    Mr. Roy of Texas. And the point--the reason I'm pointing 
that out, right--I think I also saw a report that you all did 
that--and I don't want anybody to accuse me of drawing an 
analogy between the flu and the virus, but there is an 
important data point in comparing children, basically people 
age zero to 18 that, for the most part, if I saw your all's 
data correctly from memory, that the dangerousness of the flu, 
it was about three or four times more dangerous for kids age 0 
to 18. Is that--am I roughly remembering that correctly?
    Mr. Roy. The order of magnitude is greater. So, the article 
you're referring to, which is on our website, FREOPP.org, is 
called ``Estimating the Risk of Death From COVID-19 Versus 
Influenza By Age,'' and that report compares the relative risk 
of dying from influenza or COVID based on your age, assuming 
that 150,000 people eventually die of COVID-19 this year. What 
it shows is that if you're aged 5 to 14, you're seven times 
more likely to die of influenza than COVID-19. If you're aged 1 
to 4, you're 20 times more likely to die of flu than COVID-19. 
Or reverse, you're one-twentieth as likely to die of COVID-19. 
So, the risk is very, very low of severe illness and death for 
children.
    Mr. Roy of Texas. So, I raise that because it's very 
important as we study this to figure out what we do as a 
society, right? I happen to be of the belief that it is 
tragically bad that we as a society have clamped down on our 
economy and society so much that we are denying people their 
livelihood and ability to go to work, and the ability to not 
have the second order impacts of cancer screenings and suicide 
rates going up, and the impact that you're having with respect 
to opioid addiction, or whatever it is you're having because of 
your inability to go get healthcare and mental healthcare 
because we've reacted so much--and that for people 65 and 
under, obviously for our children, when we close down schools, 
where the data would suggest that that makes no sense 
rationally to close down our schools. My concern is that we 
look at this the right way to zero in on the actual problem, 
which is when people are sick in tight quarters, meat-packing 
plants, et cetera, or if you're in a nursing home or assisted 
living facility, that's where the vast majority of the true 
dangers occur from hospitalizations and in terms of people who 
have unfortunately passed away.
    And it's really critically important that we get it right, 
because, if I remember correctly, I saw a data point just 
yesterday that 41 percent of Black-owned businesses have closed 
over the last three months as a result of the virus and 
reaction to virus, and that's horrible. And we've got to do a 
good job of getting our businesses back up and running.
    This is why I was proud to get our--the PPP Flexibility Act 
with my good friend, Dean Phillips, from Minnesota, a 
bipartisan bill, because we need these businesses to be able to 
get back up and running, but understanding the data is critical 
to that.
    Mr. Roy, could you comment on those points, particularly 
from the FREOPP standpoint?
    Mr. Roy. Yes. So, we discussed the Black-owned businesses 
data in our--and the minority owned business data in our 
testimony. The one thing--I'll put it this way, Mr. Roy, very 
simply, which is, when it comes to COVID, if you're focused on 
everything and everyone, you're focused on nothing and no one.
    Mr. Roy of Texas. Yes.
    Mr. Roy. And that is why our first responders have been put 
in danger, because instead of focusing on the at-risk 
populations, like people living in long-term care facilities, 
we were focused on harassing people when they got together with 
their relatives or they attended the funeral of their parents.
    I mean, this level of micromanagement where you couldn't go 
to the Home Depot, the gardening department, but you could go 
to the Home Depot, I don't know, lawn mower department, I mean, 
that's where we've lost our--we took our eyes off the ball, and 
that's what has endangered our first responders.
    Mr. Gomez. Mr. Roy, your time----
    Mr. Roy of Texas. Mr. Chairman, do I have one more question 
or no?
    Mr. Gomez. No. Your time has expired, Mr. Roy.
    Mr. Roy of Texas. OK. Thank you, Mr. Chairman.
    Mr. Gomez. Thank you, sir.
    Now, Ms. Plaskett, you are recognized for five minutes for 
questions. You may now unmute yourself.
    Ms. Plaskett. Good afternoon. Thank you to all the 
testifiers. And thank you, Mr. Chairman. You look good in that 
seat. Thank you for all the work that you all do. I wanted to 
ask some questions regarding communities dependent on essential 
workers to function.
    Throughout this pandemic, many of us--I'm sure all of us 
here have had the privilege of isolating at home, safe and in 
the comfort of our families. Social distancing and staying at 
home have allowed us to bend the curve of the infection, 
relieve hospitals of potential overflow, and give our 
healthcare workers a greater chance of success when fighting 
this virus and treating patients.
    We've been able to do this because individuals work in 
grocery stores and they continue to stock. Our grocery stores 
continue to be stocked with food. Our transit systems continue 
to function. Our healthcare workers take care of us when we 
fall ill. For all of these folks, staying at home simply is not 
an option.
    Mr. Perrone, can you briefly describe the role that your 
workers have had in maintaining food supplies?
    Mr. Perrone. Yes, Congresswoman. They have, of course, been 
there stocking the shelves, dealing with customers coming in 
and out. There has been, in fact, some disruption to the food--
in the food supply, not because we are short in food, but 
because our system is set up on an efficiency basis, first in, 
first out, and because everybody was at home, it changed how 
the system functioned.
    So, whether or not we're talking about some of the packing 
houses or whether or not we're talking about the retail food 
stores, those workers did, in fact, keep the food supply 
coming. And, quite honestly, I think it led to more stability 
in our society because of it, because if we had seen massive 
shortages, I do think that people would have responded very 
differently to what took place, just my opinion.
    Ms. Plaskett. That's absolutely--I mean, I agree with you 
about--I can't even imagine the fear and the concern that would 
happen in this country if people believed that they weren't 
able to get food. So, thank you for that.
    Mr. Costa, can you explain--your organization represents 
our Nation's transit workers. How would a sudden halt in all 
public transportation impact the ability to fight the virus on 
the front lines?
    Mr. Costa. A halt of the--can you repeat that, please?
    Ms. Plaskett. If we--if you didn't have your workers to go 
out on the front lines as they do, in public transportation, 
can you tell us some of the ways that you believe that would 
have impacted our ability to fight the virus in this country?
    Mr. Costa. Well, you know, many of our riders don't make a 
lot of money, and many of them are the janitors that clean the 
hospitals. Many of them need to go to grocery stores. Many of 
them need to go to dialysis and to hospitals for treatment as 
far as the--you know, the paratransit and mobility service we 
have. So, if we were to completely shut down, people would die.
    Ms. Plaskett. Thank you. Thank you. And thank you to your 
workers for everything that they do.
    Ms. Castillo, would you agree that the Nation's death toll 
would be far higher without nurses performing the lion's share 
of patient care?
    Ms. Castillo. Yes. Absolutely. That's correct.
    Ms. Plaskett. And the nurses must also work closely with 
patient transporters, like Mrs. Becote's late husband Edward. 
How essential are people like Edward in helping hospitals 
function properly and efficiently?
    Ms. Castillo. Absolutely essential. We work as a team. In 
the hospital, in the clinics, there is a team, and that team 
consists of nurses, doctors, obviously assistants, you know, 
supplies. We--you know, pharmaceutical techs. We have a whole 
team that comes to the hospital every single day. And as you 
mentioned, they don't have a choice. They're not given the 
choice to shelter at home and take care of their families. 
Their schedules have remained the same, and including the 
utilization of public transportation every single day, for 
some, have to utilize that public transportation to get to 
work.
    Ms. Plaskett. Thank you.
    Mr. Perrone, I actually also sit on the Agriculture 
Committee.
    Mr. Gomez. Congresswoman, your time has expired.
    Ms. Plaskett. Oh, has it?
    Mr. Gomez. Yes. Time flies when you're having fun. Sorry.
    Ms. Plaskett. Sorry. Thank you.
    And thank you to all of the testifiers, and thanks for the 
work that you're doing.
    Mr. Gomez. Thanks, Ms. Plaskett.
    Ms. Miller, you're now recognized for five minutes for 
questions. You may now unmute yourself.
    Mrs. Miller. Thank you, Vice Chairman Gomez.
    And, Chairman Maloney, I hope you are healthy. We want you 
to be healthy.
    And thank you for Ranking Member Hice.
    And I want to thank all of you witnesses for being here 
today.
    I especially want to express my deepest sympathy to Ms. 
Becote. The loss that you are experiencing is heartbreaking, 
and my prayers are for you and your family during this trying 
time. You're very brave to be here today.
    Our frontline workers have been the heroes of this public 
health emergency, and for that, our country is eternally 
grateful. Our doctors and nurses have provided care for our 
sickest patients and sought cares for the coronavirus.
    Those in our grocery stores and delivery services have 
ensured that everyone can get their food and goods in a safe 
manner. We have also seen those in manufacturing work around 
the clock to make sure that medical equipment and the PPEs are 
there to provide not only for America, but for other people 
around the world.
    During this pandemic, we have seen American workers and 
businesses rise to the occasion and to create new and 
innovative solutions. One company in my district, Braskem, had 
more than 40 employees agree to live at the plant for a month 
to make materials for respiratory masks. They worked around the 
clock, and they deserve our deepest respect.
    Now that we have effectively flattened the curve, we must 
look forward to safely reopening our economy and returning to 
normalcy. In West Virginia, we've already started. I want us to 
continue on the great economic success that we have seen prior 
to this pandemic and put America back to work.
    Ms. Castillo, I appreciate all the hard work that our 
nurses have taken on during this pandemic. You are the heart 
and soul of our medical society. I understand that the nurses 
would rather have made--would rather have new N95 masks instead 
of just the decontaminated masks. I think everybody can agree 
that the best mask is a new mask.
    However, we continue to have a shortage of the new N95 
masks as we work to ramp up our own production. As you are 
aware, that after the Ebola outbreak in 2014, the FDA partnered 
with a trusted nonprofit organization to conduct research for 
just such a circumstance, a national pandemic, where there was 
a shortage of N95 masks.
    The research that was conducted over multiple years was 
peer reviewed and published. It was this foresight by the FDA 
that allowed for the proven safe decontamination of these N95 
masks until the domestic supply chain can catch up with the 
demand for these masks in these unprecedented times. The 
research was published in 2016. Decontamination has made it so 
that healthcare workers don't have to wear scarves or bandanas 
or other homemade items instead of wearing the clean N95 masks.
    Would you agree that until we have an adequate supply of 
new PPE, that these decontamination units do provide the best 
interim solution to protect our healthcare workers?
    Ms. Castillo. No. No. We are experiencing many problems 
with these masks, including, as I said before, where the 
integrity of the mask and the tight--it doesn't even conform or 
you don't get that tight seal. And we know without that tight 
seal, that you don't have protection. Then we are also 
experiencing the headaches.
    So, we don't believe that it is safe or effective. And we 
have looked at some of those studies that they've done and have 
seen that in some of these studies, they've just done it on 
like a flat piece of--rather than a sort of three-dimensional 
piece mask, for instance, specifically on the masks.
    Also, with the Stanford study, this study tested the dry 
heat and hot water vapor on E. coli and not on COVID-19. And, 
also, there was a Duke study recently, and that was to evaluate 
the--did not evaluate the layers within the N95 filter. So, you 
know, we have found that it's insufficient. And we know----
    Mrs. Miller. OK. So, that--and what that means----
    Ms. Castillo [continuing]. Production. And so if we 
actually did invoked fully the Defense Production Act, then 
we'd be----
    Mrs. Miller. I need to take my time back, and I hope you 
can give those reports so that we can correct the problem.
    Ms. Castillo. Yes.
    Mrs. Miller. Dr. Roy----
    Ms. Castillo. I can provide those studies.
    Mrs. Miller [continuing]. Around the Nation, we have seen 
many states opening up and getting the economies back online 
and putting people back to work. What are some of the successes 
that you have seen with the reopening? Are we seeing local 
economies recover without a sharp spike in cases?
    Mr. Roy. Yes, Ms. Miller, that's correct. We have not seen 
a sharp spike in cases. And I would point in particular to 
Florida, which never really fully locked down; instead, locked 
down in south Florida, targeted nursing homes, like we've 
talked and talked about. I think of all the states--and we can 
praise and criticize various states--Florida has done the best 
job of targeting the high-risk populations, but having a light 
touch with the normal parts of the economy.
    Mr. Gomez. Ms. Miller, your time is----
    Mrs. Miller. Don't forget West Virginia. Thank you very 
much.
    I yield back.
    Mr. Gomez. Thank you, Ms. Miller.
    Now, Ms. Pressley, you are recognized for five minutes for 
questions. You may now unmute yourself.
    Ms. Pressley. Thank you, Mr. Chair.
    You know, while the term ``essential worker'' is a new term 
for some, it is important to remember that the workers we are 
talking about today have always been essential, although we 
have usually treated them as if they are disposable.
    But I also just want to just say that they are essential 
not only for the important utility role that they play in 
society, this is not only about their labor; this is about 
their very lives, and they matter. They have always been the 
backbone for their families, for our communities, and our 
economy, but for too long, these same workers have not had the 
basic rights and protections that they deserve.
    The COVID-19 pandemic has unveiled many of these deeply 
entrenched inequities, and we're witnessing firsthand the 
deadly consequences in real time. Long before COVID ever hit, 
many families did not have savings to cover a $400 emergency 
expense, and this pandemic has pushed those already struggling, 
already on the margins, even further. Many of these economic 
inequities have been exacerbated by staggering wages; unequal 
access to critical benefits, like paid family leave and sick 
days; necessary protections key to preserving public health and 
the economic stability of families.
    Before this unprecedented global public health crisis, only 
19 percent of workers had access to paid family leave and sick 
day protections. Many of the workers lacking these protections 
were among the same workers pleading for PPE and other 
equipment to protect themselves and their families from the 
virus.
    Many of the hardest hit communities in the Commonwealth of 
Massachusetts, in the Seventh, which I represent, vibrant and 
diverse communities like Chelsea, where 60 percent of residents 
are Latinx and almost half are immigrants. Even as positive 
cases have declined, Chelsea continues to be the biggest 
hotspot in Massachusetts.
    So, as the Commonwealth and other states are beginning the 
process of reopening, we must center our essential workers who 
so often reside in these hardest hit communities. These workers 
and communities continue to bear the brunt of this pandemic and 
will be disproportionately impacted if we see a potential 
second wave.
    Ms. Becote, you know, sympathy is not enough. Thanks for 
your husband's contributions and the role that he played in 
your family are not enough. The only thing that is the just 
thing in this moment is for us to pass this legislation. Your 
family's story is a story of thousands of families feeling the 
loss of a precious loved one robbed by this virus. It is why we 
have to change course in our policymaking and finally center 
our most vulnerable as we begin to lay the groundwork for 
recovery.
    So, thank you so much for taking time away from your family 
in the midst of your own grief to be here today, to advocate, 
to save lives, and for ensuring that all our essential workers 
have the support, PPE, hazard pay, emergency pay, family leave 
and sick days, so that they can remain safe and healthy.
    Mr. Odom, this crisis again has unveiled many of the deeply 
entrenched inequities. The United States is one of the most 
industrialized nations without a national paid family leave and 
sick day policy. How has this contributed to the economic 
challenges facing essential workers who are disproportionately 
people of color and women? Only one in five Black women can 
afford to work from home. Only one in five Latinas can afford 
to work from home. So, how is this playing out?
    Mr. Odom. Well, it's creating a crisis, Congresswoman. 
First of all, let me thank you for your leadership on insisting 
that the CDC prioritize and identify the demographic of people 
who have been tested. This is a huge equity issue. We will not 
get our arms around this problem until we know where the 
disease is.
    Ms. Pressley. Thank you.
    Mr. Odom. It's not a matter just to say anybody who wants a 
test can get it. We need to go into the communities where we 
know it exists. We need to identify it and we need to root it 
out.
    Ms. Pressley. Thank you.
    Mr. Odom. With regard to family leave, this is a problem 
that I identified in my opening remarks, especially women of 
color, who are really on the front lines of this disease. Not 
only are they having to go into work, in many instances, but 
they're also having to deal with the fact that their children 
may be at home during school-mandated closures.
    Ms. Pressley. Right.
    Mr. Odom. Right? They are disproportionately leading their 
households. So, the income that they make or don't make is the 
entire economic livelihood of that family.
    So, leave is an indispensable part of this equation, and we 
need to do more. I called for, in my opening testimony, for 
more fiscal stimulus. Leave is definitely in that category of 
fiscal stimulus. And on the point----
    Ms. Pressley. Thank you.
    Mr. Odom. And on the point that you made about the human 
cost and the human toll of this, which has not been discussed 
at nearly the length it needs to, there was a peer-reviewed 
study that was published in Nature earlier this week. It talked 
about the effects of the stay-at-home orders.
    Nearly 5 million people, confirmed cases, avoided 
coronavirus because of these stay-at-home measures. Some 60 
million Americans averted the coronavirus because of these 
measures. You can take aim and criticize the decision to open 
early, to not come back soon enough, but what cannot be denied 
is that there are millions of Americans today who do not have 
the coronavirus because frontline workers went out there to 
work to give those of us who are nonessential workers the 
ability to stay at home and work and be safe.
    Ms. Pressley. That's right. That's right. Thank you, Mr. 
Odom.
    Mr. Perrone, your union----
    Mr. Gomez. Ms. Pressley, your time has expired.
    Ms. Pressley. Oh, is that my time? OK.
    Mr. Gomez. Yes.
    Ms. Pressley. OK. Thank you.
    Mr. Gomez. Time flies by in these things. Great job. Thank 
you so much.
    Mr. Green, you are now recognized for five minutes for 
questions. You may now unmute yourself.
    Mr. Green. Thank you, Vice Chairman Gomez, Ranking Member 
Hice.
    I want to thank all the workers on the front lines, 
particularly our healthcare workers. As an ER physician, my 
heart is with you and your family. I know this is a very trying 
time, but at least for the medical personnel, I know the 
challenge, and while it's what we signed up for, that doesn't 
lessen the challenge.
    Ms. Becote, I want to thank you for being here today and 
extend my deepest sympathies for your loss.
    And, of course, we are wishing our Madam Chair a return to 
great health as soon as possible.
    I'd like to thank our nurse witness who today confirmed the 
recent article in the New England Journal of Medicine, which 
said surgical masks provide limited and no additional 
protection in the nonhealthcare setting. And in consideration 
of this and the fact that the Senate's been working for weeks 
with not a single infection, we can go back to work here in 
person. We know that our work will be better. The product we 
provide the country will be better.
    I want to begin by saying it is disingenuous to say that 
you're for workers and then not reopen the economy or drag your 
feet in reopening. I wish my colleagues across the aisle would 
see as essential the workers of this country, whose taxes will 
pay for the $4-to $8 trillion this is going to cost us. We need 
to be working.
    The headline in The Wall Street Journal yesterday was, and 
I quote, Coronavirus Obliterated Best African American Job 
Market on Record, end quote. Reopening the economy is the 
single best thing we can do to improve outcomes for all 
Americans, including and especially minorities.
    We just had a Coronavirus Select Subcommittee hearing last 
week on COVID-19 racial disparities. As a physician, I 
mentioned many reasons why Black Americans have been especially 
hit hard. But Black unemployment has risen particularly because 
of the government-imposed shutdown, and those jobs will be 
harder and harder to regain the longer the shutdown lasts.
    Many states have successfully begun to reopen. In my home 
state of Tennessee, many restaurants, retail stores, gyms have 
all been opened, under social distancing guidelines, for weeks 
now. In fact, today, I flew through Charlotte, North Carolina's 
airport. The place was packed, shoulder to shoulder in places, 
and all was well. Americans are ready to go.
    Last week, I visited Gutter Bound Distillery, a family run 
small business in Hurricane Mills, Tennessee, that just 
recently resumed normal operations, but they didn't exactly sit 
the pandemic out. They altered normal operations to make hand 
sanitizer, free of charge, for their neighbors and first 
responders.
    To defeat this virus, we have to let them reopen and lead 
the way toward recovery across the Nation. There are many 
things this committee can do right now to help reverse the 
damage caused by the shutdown, and here are three suggestions.
    First, we should permanently repeal the roughly 400 
regulations that have been suspended during the crisis. I 
cosponsored Congressman Roy's Coronavirus Regulatory Repeal Act 
that would do just that. If these regulations weren't needed 
during the crisis, then why do we need them at all? We must 
give our Nation's businesses the freedom and flexibility they 
need to bounce back.
    Second, we should examine the Federal Government's many 
outdated and bureaucratic healthcare laws and rules. As all of 
my colleagues here know, our rural hospitals are struggling, 
and this pandemic has only exacerbated their challenge.
    Last week, I visited a hospital in Waverly to discuss these 
challenges. If we don't cut the red tape and let these 
hospitals serve their communities, we will see dire long-term 
consequences. Certificates of need should not impose revenue 
stream limitations on critical access hospitals.
    And, finally, we must confront Beijing and hold them 
accountable for the spread of the virus in the first place. The 
Chinese Communist Party hid the severity of the coronavirus, 
crushed whistleblowers, denied offers of U.S. aid, allowed the 
coronavirus to spread, and covertly hoarded PPE. The leadership 
of China is taking China from a friend of America to an 
adversary of America, and we need to hold the CCP accountable.
    For starters, the House should vote on my bill, House 
Resolution 6903, the Bring American Companies Home Act. This 
bill incentivizes American companies to move back and covers 
100 percent of their moving costs.
    In medicine, we have a rule: First, do no harm. Keeping the 
economy closed continues to harm millions of Americans. It's 
time to not just reopen the economy, but to take proactive 
steps to reverse the damage. This is where our Oversight 
Committee can lead, and I ask Madam Chair and all the members, 
let's lead on that. Let's get Americans back to work, open up 
our businesses, and save jobs and lives.
    Thank you. I yield back.
    Mr. Gomez. Thank you so much.
    First, I just want to acknowledge that Ms. Becote had to 
leave. I just want to thank her for her testimony. If members 
have a question, they can submit it for the record for Ms. 
Becote.
    Ms. Tlaib, you're now recognized for five minutes for 
questions. You may now unmute yourself.
    Ms. Tlaib. Thank you so much. And thank you so much to the 
panelists for being here.
    I want to always center on people in my district and those 
directly impacted. So, I want to share this photo of Jason 
Hargrove, a Detroit bus driver. He posted a video on his 
Facebook, where he expressed his frustrations about the unsafe 
conditions on the bus, including passengers coughing. He posted 
that video of himself wearing the mask, as you saw, on his bus 
with the captions: I can't stay home. I'm on the road for you.
    Just 11 days after posting his video, this 50-year-old 
father of six died of complications of COVID-19. Mr. Hargrove's 
story highlights the dangers that our trained employees are 
facing and other frontline workers, as you all have been 
hearing.
    So, I want to ask you, Mr. Costa, when I hear Mr. 
Hargrove's story, the first thing I want to do is start 
protecting people right away and try to adjust that, but when 
you hear some of my colleagues and some of the rhetoric coming 
out about opening up the economy, what do you hear? First, what 
is the first thing you're thinking about when people ignore Mr. 
Hargrove's story and so many transit workers on the ground, 
when you hear people we have to open up the economy? Can you 
answer that question?
    Mr. Costa. Yes. I think of Hargrove, he's a hero. He 
brought the transportation workers on the front in this 
pandemic to light about how our government failed us and did 
not protect us. And that's my fear: how many more Hargroves are 
we going to be faced with if we open up without them being 
prepared?
    I mean, I'm listening to somebody tell me one thing, but 
I'm understanding that, you know, as these states are opening 
up and nobody is using PPE--I don't know. I watch the news too 
and I read the news, and it seems like there's more people 
getting sick. And it is, right now--I'm from Jersey, and I'm in 
Maryland right now. It's 90 degrees. All week, it's been--you 
know, it's not like February anymore.
    But, you know, we need to move slowly, and we have to be 
very cautious, because our operators, as I said earlier, over a 
thousand are still infected, that we know of. Many are 
quarantined. If they're on the buses, they're spreading it to 
our front line or our grocery store workers that are on these 
buses, our frontline doctors and nurses that are on these 
buses. Are we doing the right thing?
    Ms. Tlaib. That's right. Thank you, Mr. Costa. I really 
appreciate it. I--you know, there's so much--actually, more 
uncertainty now, I feel, around COVID than ever before.
    Mr. Perrone, I want to turn to you. You know, according to 
your organization, at least 68 grocery workers have died from 
coronavirus, and over 10,000 have been infected as of May 20 of 
2020. You know, I know Kroger's here in Michigan fought--they 
fought so hard just for basic masks, and they were able to get 
that and $2 hazard pay. Are you familiar, Mr. Perrone, that 
many of your workers on the ground here in Michigan were 
actually threatened after, you know, some changes and regarding 
reopening the economy, that Kroger's was actually attempting to 
repeal the $2 but also retroactively do it, asking the 
essential workers, the grocery workers, for that money back? 
Are you aware of that?
    Mr. Perrone. I'm very much aware of it, and quite frankly, 
we went postal about it, and Kroger reversed their position. 
Just so that you understand, presently right now, I reported 
earlier today that we had 225 members who had passed. As of 
yesterday, it's now 227. We'll get numbers again tomorrow.
    In retail food, we've had 80 that have passed away, just in 
retail food, and we've had, you know, over 5--5,800 that have 
been exposed, 3,700 that have had positive diagnoses.
    So, let me say the following as it relates to, you know, 
PPE. In fact, somebody mentioned it a little bit earlier about 
cloth masks versus NP-95 masks or N-95 masks. It is critical 
if--if you're going to be protected that you have the mask, the 
N-95 mask. You may protect somebody else if you have a cloth 
mask on, but you're not going to be protected if you don't have 
an N--an N-95. So, we think that we need to recognize, and it 
is my understanding that some of the major corporations in this 
country----
    Ms. Tlaib. OK.
    Mr. Perrone [continuing]. They're going to do away with 
masks----
    Ms. Tlaib. That's right.
    Mr. Perrone [continuing]. That are at that level. So, I am 
very concerned.
    Ms. Tlaib. No. Thank you. And just for the record, yes, 
Kroger has repealed it. They called it Heroes Pay, and for some 
reason, a month later, our--our neighbors that work in the 
grocery stores all of a sudden weren't heroes anymore. So I--I 
know you fought hard and you repealed it, but I want it on the 
congressional Record that Kroger's Company attempted to 
retroactively remove the Heroes Pay to folks that actually put 
their lives under risk to get groceries on people's table. 
Thank you so much.
    Mr. Gomez. Ms. Tlaib, thank you so much for your questions.
    Ms. Keller--Mr. Keller, you have five minutes for 
questions. You may now unmute yourself.
    Mr. Keller, we can't--we're having technical difficulties. 
We can't see you or hear you. I can see you now, but can't hear 
you. You must be in the SCIF. Let's do this, Mr. Keller. Ms. 
Porter. We're going to go to Ms. Porter, and then we'll come 
back to you, Mr. Keller.
    So, Ms. Porter. Ms. Porter, you are now recognized for five 
minutes for questions. You may now unmute yourself. Thank you.
    Ms. Porter. Thank you very much.
    Ms. Castillo, I want to thank you for your work to keep our 
patients safe and healthy in California in particular, and 
please let your members know how much I appreciate the risk 
that you all are taking every day to care for our families.
    The gentleman from Ohio where Battelle is based, Mr. Gibbs, 
discussed Battelle in his questioning, and I wanted to followup 
on that. Starting with your statement, Ms. Castillo, you 
mentioned that NNU, National Nurses United, has been collecting 
information on workplace protections testing and COVID-19 
infections among nurses. What kinds of PPE do nurses need to do 
their jobs every day?
    Ms. Castillo. PPE--as I had mentioned before, PPE starts 
with head to toe coverings, and so, it's important to 
understand that we don't want one square inch or piece of 
clothing exposed. So, that in addition to the respirators which 
the N-95 is minimum, there are higher levels of protection, 
respirators, the N-100's. The PAPRs, in particular, are very 
effective. But also we need the--the head coverings, the 
shields, the coveralls, the gloves.
    Ms. Porter. Ms. Castillo, are you having to reuse that PPE?
    Ms. Castillo. We are having--yes. In some--in some cases, 
we are.
    Ms. Porter. What kind of risk does it create when we reuse 
PPE?
    Ms. Castillo. So, we are especially being asked to reuse 
the N-95s, and anyone that has tried to put an N-95 on will 
recognize that it has--you have to be very careful in terms of 
what is called ``donning,'' or putting it on or ``doffing,'' 
taking it off, so that you don't touch the outside or that the 
outside doesn't touch any other surface. So, in doing--in 
reuse, anytime you are putting it on or taking it off in 
between uses, you have a risk of exposure, and that exposure 
can be transmitted to subsequent patients.
    Ms. Porter. So, I wanted to ask you. NNU, as I understand 
it, has done some studies on how often these N-95s are being 
decontaminated, so-called decontamination. How often is that 
happening?
    Ms. Castillo. Well, we have--we do know that there are 
employers that are using this method. Some have abandoned it, 
because they found that it is not effective and that it is 
actually resulting in deformed and--and deficient masks, but 
those that--it's clear that some are continuing to do that. 
What we found in our studies is that we--we did a survey of 
nurses across the Nation and found that close to 30 percent, 28 
percent of those respondents were--were asked to reuse a 
decontaminated mask.
    Ms. Porter. So, I've heard these concerns before----
    Ms. Castillo. Yes.
    Ms. Porter [continuing]. And thank you for raising them. On 
May 26, I wrote to the FDA Commissioner, to Stephen Hahn. I 
sent this letter.
    Mr. Chairman, I move to put this letter into the record. 
It's been sent to the committee pursuant to the rules 
previously.
    Mr. Gomez. Ms. Porter, thank you for following the rules. 
Without objection, so ordered.
    Ms. Porter. So, in that letter to the FDA Commissioner, I 
was alarmed about what we were hearing from nurses about the 
Battelle system. And as of April 12, there were 426 California 
hospitals using Battelle's so-called decontamination system, 
including 32 hospitals in Orange County.
    Millions of taxpayer dollars and the lives of an untold 
number of our healthcare workers are at risk if this 
decontamination doesn't perform as expected. So Ms. Castillo, 
what motivation might the administration have for allowing this 
Battelle system to decontaminate masks, and more masks than it 
can safely handle?
    Ms. Castillo. Right. It was a huge award that was awarded 
to Battelle, a $415 million no-bid contract. And the--you know, 
what we have seen is decisions are being made based on 
inadequate planning and supplies. And instead of planning to 
ensure that we are able to get the supplies, the PPE, they're 
utilizing this method which is unproven and won't protect. And 
this is not uncommon for us to see the fact that they subscribe 
to these----
    Ms. Porter. Ms. Castillo, I just want to ask you one last 
question----
    Ms. Castillo. Sure.
    Ms. Porter [continuing]. Before my time expires.
    Ms. Castillo. Sure.
    Ms. Porter. What is the best solution here to get you and 
your fellow nurses new N-95 masks and to stop reuse?
    Ms. Castillo. We need to invoke the Defense Production Act, 
and we need to start immediately producing, domestically, PPE, 
adequate amounts of respirators and gloves and gowns, all of 
the PPE that we need now and for the future.
    Mr. Gomez. Ms. Porter, your time has expired. Thank you.
    Mr. Keller, you're now recognized for five minutes for 
questions. You may now unmute yourself.
    Mr. Keller. Thank you, Mr. Chairman. We'll try take two on 
this one. Again, I want to--I want to thank everybody for 
attending today's meeting. I would first like to start by 
expressing the gratitude to our frontline healthcare workers, 
hospital staff, EMS, firefighters, police, and other first 
responders, our grocers, truck drivers, custodians, factory 
workers, farmers, ranchers and many others who have been 
showing up to work and keeping our essential activities going. 
Their efforts during this unprecedented emergency have been 
nothing short of heroic.
    Thanks to these workers and businesses, as well as the 
leadership of President Trump, our supply chain has endured 
this pandemic, we flattened the curve, and every American who 
needed a ventilator has gotten one. At the same time, I'm 
disappointed that the Speaker has not asked the House to return 
to Washington to conduct its business. If American workers are 
showing up to work, their elected Members of Congress should do 
the same.
    Moving forward, it is clear that the best form of economic 
stimulus is a job. The Paycheck Protection Program appears to 
be functioning as intended, and helping our businesses and 
workers weather this pandemic. In order to build on the 
promising May jobs report that was just unveiled, we need to 
reopen economies and get more people back to work.
    Well, Governor Tom Wolf has unilaterally kept many 
Pennsylvania businesses closed, forcing some to go out of 
business permanently. We have proven in parts of Pennsylvania, 
that the parts that are open, that this can be done swiftly and 
safely by trusting our communities to follow proper hygienic 
and social distancing guidelines.
    Having said all that, I do have a question for Dr. Roy. Dr. 
Roy, again, and all the panelists, thank you for participating. 
Dr. Roy, with your expertise, you know, looking at the Bureau 
of Labor Statistics' recent May jobs report, it found that the 
U.S. nonfarm payroll employment increased by 2.5 million jobs 
last month, many of which include jobs in manufacturing, 
leisure, and hospitality. I think almost half of them, or 
somewhere around half were in hospitality and food service. If 
we continual to safely reopen our economy, can we expect to see 
more promising job numbers going forward?
    Mr. Roy. I hope so, and I hope and expect so, yes, sir.
    Mr. Keller. I would also think that, you know, as we've 
been talking about what groups of individuals have been hit 
hardest by this, the fact that the hospitality injury, or 
industry has seen most of this, that we would see more people 
getting back to work, maybe, than--than need the jobs, you 
know, and have been unable to work for so long.
    Mr. Roy. Mr. Keller, in my written testimony, and I talked 
about this in my opening statement as well, the data is quite 
strong on this point, that minority workers who are 
disproportionately hourly wage workers, the disparity between 
white and nonwhite employment has been widened substantially 
because of the lockdowns, and if we want to narrow those 
disparities, we should reopen the economy. Safely, of course.
    Mr. Keller. And--and getting--getting business to reopen is 
only part of the challenge. There are countless students whose 
education will be interrupted by this pandemic, many of whom 
reside in rural areas like northeastern and north central 
Pennsylvania, and may not have easy access to online learning. 
What are some strategies we can use to keep these students 
engaged and moving forward, improving their skill sets and 
joining the work force?
    Mr. Roy. Mr. Keller, I'm so glad you brought that up. That 
is something I wanted to address in my testimony, but it was 
already getting too long. It's an extremely important point, 
not just for the children whose education--and 
disproportionately minority children, by the way, whose 
education has been suspended or retarded because of the 
lockdowns, but also their parents. If you're a single mom and 
you're a pharmacist, and you want to go to work, you might not 
be able to because going to work means leaving your child 
unattended at home, and so, it's incredibly economically 
important. There are a lot of children who depend on the school 
lunch program at low income schools for nutrition.
    There are all sorts of aspects to what public schools, in 
particular, are doing to help low income communities go forward 
and--and meet the--the closure of schools is not justified by 
what we know about COVID-19. The disease does not affect 
children. It can affect elderly janitor staff, people who work 
at schools. Maybe you could test them, maybe give them paid 
leave, but children can go to school safely. And if we monitor 
the efforts of population that are teaching and caring for 
those children in schools, we can do that. We're seeing that in 
Europe. We're seeing that in Texas and Florida. Schools that 
are reopening are doing okay.
    Mr. Keller. Thank you. I appreciate that, and I yield back, 
Mr. Chairman.
    Mr. Gomez. Thank you so much. Really appreciate it. I see 
no other speakers.
    Before we adjourn, I'd like to recognize myself to submit 
for the record two additional statements from groups who 
represent countless essential workers across our Nation. Both 
of these documents have been distributed to members and staff 
in advance of today's hearing. Without objection, I would like 
to enter into the record the following documents: A written 
statement by Derrick Johnson, President and CEO of the NAACP, 
regarding today's hearing, and expressing support for 
Chairwoman Maloney's Pandemic Heroes Compensation Act. Without 
objection, so ordered.
    Mr. Gomez. In addition, a statement for the record by the 
American Federation of Government Employees regarding today's 
hearing. Without objection, so ordered.
    Mr. Gomez. I would also like to thank our witnesses for 
testifying today: Ms. Becote, Ms. Castillo, Mr. Perrone, Mr. 
Costa, Mr. Odom, and Mr. Roy. Thank you for testifying today. I 
know that this is an issue that we all care about across the 
country. Essential workers are not Democrats or Republicans or 
independents, they're Americans, first and foremost, and I 
believe that there can be a common will to find solutions to 
these problems. Although our solutions might not be the same on 
both sides of the aisle, I know that there is a common 
commitment.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response. I'd ask our witnesses to please 
respond as promptly as you are able.
    This hearing is now adjourned.
    [Whereupon, at 3:26 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
